APPENDIX

APPENDIX A:

Opinion, No. 20-60301, United
States Court of Appeals for the
Fifth Circuit, Aug. 31, 2020............ 1a

APPENDIX B:

Order and Memorandum
Opinion, No. 1:19-cv-121, United
States District Court for the
Northern District of Mississippi,
Mar. 11, 2020 .................................... 8a

APPENDIX C:

Complaint, No. 1:19-cv-121,
United States District Court for
the Northern District of
Mississippi, June 17, 2019 ............ 36a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_____________
No. 20-60301
Summary Calendar
_____________
FELICIA ROBINSON,
Plaintiff–Appellant,
versus
WEBSTER COUNTY, MISSISSIPPI; WEBSTER COUNTY
SHERIFF’S DEPARTMENT; TIM MITCHELL, IN HIS
OFFICIAL CAPACITY; TIM MITCHELL, IN HIS INDIVIDUAL
CAPACITY; SANTANA TOWNSEND,
Defendants–Appellees.
_____________________
Appeal from the United States District Court
for the Northern District of Mississippi
USDC No. 1:19-CV-121
_____________________
Before KING, SMITH, and WILSON, Circuit Judges.
PER CURIAM:


Pursuant to 5TH CIRCUIT RULE 47.5, the Court has determined
that this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE

2a
Felicia Robinson appeals the district court’s Rule 12(c)
dismissal of her 42 U.S.C. § 1983 claims premised on
alleged Fourteenth Amendment violations. She also
challenges the district court’s denial of her motion to
strike various Webster County defenses, premised on
judicial estoppel. We agree with the district court and
affirm.
While the relevant precedent is clear and requires our
affirmance, we acknowledge that the facts of this matter,
as alleged by Robinson, are unsettling. According to
Robinson’s complaint, Webster County Sheriff Tim
Mitchell released Daren Patterson from jail for a weekend
furlough. Sheriff Mitchell allowed the release despite
knowing Patterson’s propensity for violence, particularly
towards Robinson, his wife. The night of his release,
Patterson verbally and physically abused Robinson while
at Robinson’s home. Around 9:23 p.m., Robinson called
Santana Townsend, a Webster County Sheriff’s
Department dispatcher, for help. Because Robinson is
related to Townsend, she called Townsend’s personal cell
phone rather than 9-1-1 or the sheriff’s department.
Despite Robinson’s request for help, Townsend did not
send a deputy to Robinson’s home to retrieve Patterson.
Instead, Townsend gave the phone to another prison
trusty to speak to Patterson. After the call, Patterson
became angrier. Around midnight, Patterson attacked
Robinson, punching her repeatedly until she blacked out.
Patterson then poured “Liquid Fire” drain cleaner over
Robinson’s nearly naked body, resulting in severe burns.
Robinson escaped and drove to the hospital where she
received extensive medical treatment before being
47.5.4.

3a
transferred to a burn center. Patterson returned to the
Webster County Jail.
As a result of these events, Robinson filed this action
against Webster County, the Webster County Sheriff’s
Department, Sheriff Mitchell (in his individual and official
capacity), Dispatcher Townsend (in her official capacity),
and Patterson. In her complaint, Robinson asserted
eighteen counts, including various § 1983 and state law
claims. Patterson did not file a responsive pleading, and
the clerk entered default against him. The remaining
parties filed answers and affirmative defenses.
Sheriff Mitchell (in his official capacity), Dispatcher
Townsend, the Webster County Sheriff’s Department,
and Webster County also moved jointly for judgment on
the pleadings, contending Mitchell and Townsend should
be dismissed as duplicate official-capacity defendants.
The Webster County Sheriff’s Department filed a second
motion for judgment on the pleadings, contending it
should be dismissed as an improper defendant not
amenable to suit. Webster County also filed a second
motion for judgment on the pleadings, contending
Robinson’s claims against it failed as a matter of law.
Sheriff Mitchell (in his individual capacity) moved for
judgment on the pleadings, asserting qualified immunity.
Finally, Robinson moved to strike various defenses
presented by Webster County, including that Patterson
was not in its custody at the time of the subject incident.
The district court addressed the parties’ motions in a
single order and memorandum opinion. In its order and
opinion, the district court denied Robinson’s motion to
strike and granted dismissal to all parties except
Patterson. The district court agreed that Robinson’s
claims against Sheriff Mitchell (in his official capacity) and

4a
Dispatcher Townsend were duplicative of Robinson’s
claims against Webster County. The court also agreed
that the Webster County Sheriff’s Department lacked the
capacity to be sued. The court ultimately concluded that
each of Robinson’s § 1983 claims failed as a matter of law.
Having determined that Robinson’s federal claims failed
as a matter of law, the court declined to retain
supplemental jurisdiction over Robinson’s state law
claims.1
On appeal, Robinson asserts the district court erred
(1) by finding defendants did not have a special
relationship with Robinson for purposes of § 1983, (2) by
declining to apply the state-created danger theory, and
(3) by declining to apply the doctrine of judicial estoppel
as requested in Robinson’s motion to strike. Robinson
also contends that the district court should retain
supplemental jurisdiction over Robinson’s state law
claims if this action is remanded.
We review de novo a district court’s grant of a Rule
12(c) motion. Machete Prods., LLC v. Page, 809 F.3d 281,
287 (5th Cir. 2015). “A motion brought pursuant to Rule
12(c) is designed to dispose of cases where the material
facts are not in dispute and a judgment on the merits can
be rendered by looking to the substance of the pleadings
and any judicially noticed facts.” Id. (quoting Great
Plains Tr. Co. v. Morgan Stanley Dean Witter & Co., 313
F.3d 305, 312 (5th Cir. 2002)). The standard for Rule 12(c)
Dispatcher Townsend also filed a pro se Answer and
Counterclaim, and Robinson filed a motion for judgment on the
pleadings as to Dispatchers Townsend’s counterclaim. The district
court dismissed Robinson’s motion without prejudice when it declined
to exercise supplemental jurisdiction over the remaining state law
claims.
1

5a
and Rule 12(b)(6) motions is the same. In re Great Lakes
Dredge & Dock Co., 624 F.3d 201, 209–210 (5th Cir. 2010).
That is, “a complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief that is
plausible on its face.” Id. at 210 (quoting Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009)). Otherwise, the complaint
warrants dismissal. “In deciding whether the complaint
states a valid claim for relief, we accept all well-pleaded
facts as true and construe the complaint in the light most
favorable to the plaintiff.” Id. (citing Doe v. MySpace,
Inc., 528 F.3d 413, 418 (5th Cir. 2008)).
To state a valid claim for relief under § 1983, “a
plaintiff must (1) allege a violation of a right secured by
the Constitution or laws of the United States and
(2) demonstrate that the alleged deprivation was
committed by a person acting under color of state law.”
James v. Texas Collin County, 535 F. 3d 365, 373 (5th Cir.
2008) (internal quotation marks and citation omitted). As
this Court has previously recognized, “[t]he right to be
protected by the state from private violence is limited and
rests on substantive due process.” Doe v. ColumbiaBrazoria Indep. Sch. Dist., 855 F.3d 681, 688 (5th Cir.
2017) (citation omitted). As a general rule, a state’s
“failure to protect an individual against private violence
simply does not constitute a violation of the Due Process
Clause.” DeShaney v. Winnebago Cnty. Dep’t of Soc.
Servs., 489 U.S. 189, 197 (1989). But there is an exception
to this rule, which applies when the state—or in this case,
the county—creates a “special relationship” with a citizen,
requiring it to protect that citizen from harm. Doe ex rel.
Magee v. Covington Cnty. Sch. Dist. ex rel. Keys, 675 F.3d
849, 855–56 (5th Cir. 2012)(en banc). Several other
circuits have also adopted a second exception known as

6a
the “state-created danger” theory, applicable when the
state affirmatively created or exacerbated a dangerous
situation that led to a person’s injury. See Kovacic v.
Villarreal, 628 F.3d 209, 214 (5th Cir. 2010). But this
Court has declined to join our sister circuits in recognizing
that theory on several occasions.2 See, e.g., Keller v.
Fleming, 952 F.3d 216, 226–27 (5th Cir. 2020); ColumbiaBrazoria, 855 F.3d at 688; Covington, 675 F.3d at 865;
Kovacic, 628 F.3d at 214.
Here, Robinson’s claims are premised on an act of
private violence. She contends that Webster County, via
Sheriff Mitchell, violated her Fourteenth Amendment due
process rights by releasing Patterson from jail and
permitting him to terrorize her.
While Robinson
recognizes that under the general rule the county is not
liable for Patterson’s violent acts against her, Robinson
contends that the district court erred by (1) finding
Webster County did not have a special relationship with
her and (2) declining to apply the state-created danger
theory. Based on our precedent, we must disagree.
Robinson first asserts that she has a special
relationship with the county because the county
effectively limited her liberty by releasing Patterson from
jail. But this does not suffice to create a special
relationship between Robinson and the county. Under the
special relationship theory, “[t]he affirmative duty to
“Although we have not recognized the [state-created danger]
theory, we have stated the elements that such a cause of action would
require[:] . . . ʻ[1] the defendants used their authority to create a
dangerous environment for the plaintiff and [2] that the defendants
acted with deliberate indifference to the plight of the plaintiff.’”
Covington, 675 F.3d at 865 (quoting Scanlan v. Texas A&M Univ.,
343 F.3d 533, 537–38 (5th Cir. 2003)).
2

7a
protect arises not from the [s]tate’s knowledge of the
individual’s predicament or from its expressions of intent
to help him, but from the limitation which it has imposed
on his freedom to act on his own behalf.” DeShaney, 489
U.S. at 200. In her complaint, Robinson does not allege
that the county restricted her ability to act on her own
behalf. It follows that the district court correctly
concluded that the special relationship theory does not
apply here.
Robinson next asserts the district court should have
applied the state-created danger theory. As Robinson
recognizes, however, this Court has “ʻrepeatedly noted’
the unavailability of the [state-created danger] theory in
this circuit.” Columbia-Brazoria, 855 F.3d at 688 (citation
omitted). The district court correctly declined to stray
from circuit precedent. And we decline as well. See In re
Hidalgo Cnty. Emergency Serv. Found., 962 F.3d 838, 841
(5th Cir. 2020).
Accordingly, Robinson’s § 1983 claims fail as a matter
of law, and the district court correctly dismissed them.
See DeShaney, 489 U.S. at 197. We do not address the
district court’s denial of Robinson’s motion to strike
because the dismissal of her claims renders it moot.
Likewise, we do not address the district court’s decision
not to retain supplemental jurisdiction over Robinson’s
remaining state law claims because Robinson premised
that request on this action being remanded.
AFFIRMED.

8a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
FELICIA ROBINSON
V.

PLAINTIFF
CIVIL ACTION NO.
1:19-CV-121-SA-DAS

WEBSTER COUNTY
MISSISSIPPI, WEBSTER
COUNTY SHERIFF’S
DEPARTMENT, TIM
MITCHELL, SANTANA
TOWNSEND, and DAREN
PATTERSON

DEFENDANTS

ORDER AND MEMORANDUM OPINION
Felicia Robinson initiated this action on June 17, 2019,
by filing her Complaint [1] against Webster County,
Mississippi, the Webster County Sheriff’s Department,
former Webster County Sheriff Tim Mitchell (in his
official and individual capacity), former Webster County
Dispatcher Santana Townsend (in her official and
individual capacity), and her husband, Daren Patterson.
Presently before the Court is a Motion to Strike [31] filed
by Robinson, as well as multiple Motions for Judgment on
the Pleadings filed by various parties [18, 20, 22, 26, 35].
Each of the motions is ripe for review.1
Robinson also filed a Motion for Setting of Hearing on Pending
Motions [50], requesting that the Court allow the parties an

1

9a
Factual and Procedural Background
In May 2018, Daren Patterson was arrested by the
Webster County Sheriff’s Department for assaulting a
police officer and for possession of methamphetamine.
After failing to post bond, Patterson remained in the
custody of the Webster County Sheriff’s Department
until November 2018.2
According to Robinson’s Complaint [1], while
Patterson was in the custody of the Webster County
Sheriff’s Department, Webster County Sheriff Tim
Mitchell appointed Patterson as a trusty of the jail.
During Patterson’s period of incarceration, on September
1, 2018, Sheriff Mitchell granted Patterson a “weekend
jail pass.” During that weekend, Patterson was involved
in an altercation with Robinson, his wife, at a pool hall in
Eupora, Mississippi. According to Robinson, Patterson
assaulted her and attempted to kill her by running over
her with his vehicle. As a result of that incident, Patterson
was charged by the Eupora Police Department with
leaving the scene of an accident. Robinson further avers
that Sheriff Mitchell was aware of this incident. Patterson
was granted an additional “jail furlough” by Sheriff
Mitchell on October 11, 2018. No altercations occurred
during Patterson’s October 11, 2018 furlough.
Sheriff Mitchell again granted Patterson a “weekend
opportunity to make oral arguments in connection with the pending
motions. The Court finds that the issues raised in the motions can be
adequately addressed without a hearing. No hearing will be held, and
the Motion [50] is denied.
2
Patterson had previously been convicted of a felony drug possession
in January 2014 and was sentenced to serve four years in MDOC
custody and four years on post-release supervision. The May 2018
arrest occurred while Patterson was on supervised release.

10a
pass” on the weekend of November 2, 2018. Robinson
contends that, during the November 2, 2018 weekend
pass, Patterson subjected her to “malicious and sadistic”
abuse.
Specifically, Robinson alleges that on the
afternoon of November 2, 2018, Patterson threw a beer
can at her, punched her in the face, and threatened to burn
down her home. Later that evening, Patterson allegedly
punched a hole in the wall of Robinson’s home and
subjected her to verbal and physical abuse, causing
Robinson to fear for her life. At approximately 9:23 p.m.
that night, Robinson made a call to Dispatcher Santana
Townsend, who was a dispatcher with Webster County at
the time, seeking law enforcement assistance. Robinson
purportedly placed the call to Dispatcher Townsend’s cell
phone, rather than the general phone number for the
Webster County Sheriff’s Department, because she had a
personal relationship with Dispatcher Townsend.3
Dispatcher Townsend did not dispatch law enforcement
to Robinson’s residence but instead placed another trusty
on the phone to speak to Patterson to calm him down.
Patterson became even more agitated following the phone
conversation and never left Robinson’s residence. Law
enforcement was never dispatched to Robinson’s home.
At approximately 12:30 a.m. the following morning,
Patterson, while still in an enraged state, purportedly
threw Robinson on the bathroom floor, punched her
repeatedly, and poured “Liquid Fire” on her in an
apparent attempt to burn her alive. After a struggle,
Robinson eventually escaped from Patterson and tried to
travel to the hospital to seek treatment for her injuries,
which included significant burns. She was unable to leave
As noted in her pro se Answer and Counterclaim [25], Dispatcher
Townsend disputes that this phone call ever occurred.

3

11a
the residence without Patterson, and she traveled to the
hospital with Patterson in the passenger seat of her
vehicle. When Robinson and Patterson arrived at the
hospital in the early morning hours of November 3, 2018,
Robinson received extensive medical treatment for her
injuries and was later transferred to a burn treatment
center in Brandon, Mississippi. Patterson eventually
returned to the Webster County Jail and was released
from custody sometime later.
Robinson initiated this action on June 17, 2019, by
filing her Complaint [1] against Webster County, the
Webster County Sheriff’s Department, Sheriff Mitchell,
Dispatcher Townsend, and Patterson.
Robinson’s
Complaint sets forth eighteen different counts, including
various Section 1983 and state law claims, and requests
compensatory and punitive damages. In the first ten
counts of her Complaint, Robinson asserts a litany of state
law claims, including claims for assault, battery, false
imprisonment, and intentional infliction of emotional
distress against Patterson; failure to supervise an inmate
and negligent infliction of emotional distress claims
against Webster County, the Webster County Sheriff’s
Department, Sheriff Mitchell, and Dispatcher Townsend;
and a gross negligence claim against Webster County, the
Webster County Sheriff’s Department, and Dispatcher
Townsend in her representative capacity. Robinson also
asserts various Section 1983 claims. Specifically, she
asserts claims against Patterson for violations of her
Fourteenth, Fourth, and Eighth Amendment rights, as
well as separate claims against Webster County and the
Webster County Sheriff’s Department on the basis that
those entities are liable for Patterson’s purported
violations of her constitutional rights. Robinson also

12a
asserted a claim for failure to train and supervise against
Webster County, the Webster County Sheriff’s
Department, and Sheriff Mitchell. Dispatcher Townsend
responded to Robinson’s Complaint by filing a pro se
Answer and Counterclaim [13], asserting that many
allegations in Robinson’s Complaint are false and
constitute defamation of character. Although Patterson
was served with process on June 20, 2019, he has not filed
an answer or any other responsive pleading in this cause,
and the Clerk has entered a default against him.
On August 15, 2019, Webster County, the Webster
County Sheriff’s Department, Sheriff Mitchell, and
Dispatcher Townsend filed a joint Motion for Judgment
on the Pleadings [18] seeking dismissal of all duplicate
official capacity claims against Sheriff Mitchell and
Dispatcher Townsend. Webster County Sheriff’s
Department also moved for dismissal on the basis that it
lacks capacity to be sued [20]. Webster County filed a
separate Motion for Judgment on the Pleadings seeking
dismissal of all claims against it [22], arguing that
Robinson’s Section 1983 claims fail as a matter of law and
that the Court should decline to exercise supplemental
jurisdiction over the state law claims or, alternatively, also
grant judgment in its favor on those claims. Sheriff
Mitchell filed a separate Motion for Judgment on the
Pleadings [35], contending he is entitled to qualified
immunity.
Additionally, Robinson filed a Motion for Judgment on
the Pleadings as to Dispatcher Townsend’s Counterclaim
[26]. Finally, Robinson filed a Motion to Strike [31],
arguing that Webster County should be judicially
estopped from contending that Patterson was not in its
custody at the time of the subject incident.

13a
Analysis and Discussion
As set forth above, Robinson’s Motion to Strike [31]
and the various Motions for Judgment on the Pleadings
[18, 20, 22, 26, 35] are currently before the Court. The
Court will address each of the pending Motions in turn.
I. Robinson’s Motion to Strike
Rule 12(f) of the Federal Rules of Civil Procedure
places upon district courts the authority to “strike from a
pleading an insufficient defense or any redundant,
immaterial, impertinent, or scandalous matter.” FED. R.
CIV. P. 12(f). “[M]otions to strike defenses are generally
disfavored and rarely granted.” Blount v. Johnson
Controls, Inc., 328 F.R.D. 146, 148 (S.D. Miss. 2018)
(quoting Solis v. Bruister, 2012 WL 776028, *7 (S.D. Miss.
Mar. 8, 2012)). A defense should be stricken only when it
“cannot, as a matter of law, succeed under any
circumstance.” U.S. v. Renda, 709 F.3d 472, 479 (5th Cir.
2013).
In her Motion [31], Robinson contends that, pursuant
to the doctrine of judicial estoppel, the Court should strike
Webster County’s defense that Patterson was illegally
released and not in the County’s custody on the night of
the subject incident. Robinson also argues that Webster
County should be estopped from making this argument in
its briefs and other filings with the Court. Robinson’s
Motion specifically concerns the following two statements
contained in Webster County’s Answer to the Complaint:
19.
Patterson never posted bond. While
out of jail, he held the status of an escapee.
He was not in the custody of Webster
County.

14a
...
EIGHTH DEFENSE
Patterson’s release was illegal. It was not
the act of Webster County. It is not
attributable to Webster County under state
or federal law.
Robinson argues that Webster County should be
judicially estopped from contending that Patterson was
not in its custody at the time of the subject incident due to
the content of the Notice of Criminal Disposition which it
filed in Patterson’s state court criminal case, State of
Mississippi v. Daren Patterson, Webster County Circuit
Court Cause No. CR2013-041. Specifically, Robinson
relies upon the Notice of Criminal Disposition’s indication
that Robinson was confined in the Webster County Jail at
all times from May 30, 2018 to November 20, 2018.
Robinson argues that “[b]y way of [the] Notice of
Criminal Disposition, which is signed by the Circuit Clerk
and bears the Seal of the Circuit Court, the County
represents that Daren Patterson was ‘confined’ in the
‘Webster County Jail’ from ‘5/30/2018 to 11/20/2018.’”
Stated differently, Robinson argues that because
Webster County in the Notice of Criminal Disposition
represented that Patterson’s dates of confinement
included the date on which the subject incident occurred,
Webster County should be prohibited from now taking
the position that Patterson was not in its custody and
control when he committed the purported assault.
According to Robinson, Webster County’s defenses on
this point “are insufficient as a matter of law pursuant to
the doctrine of judicial estoppel because they assert legal
positions contrary to one previously asserted by the
County in the matter of State of Mississippi v. Daren

15a
Patterson[.]”
“Judicial estoppel is a common law doctrine that
prevents a party from assuming inconsistent positions in
litigation.” Kane v. National Union Fire Ins. Co., 535
F.3d 380, 385 (5th Cir. 2008) (citations omitted). “The
purpose of the doctrine is to protect the integrity of the
judicial process by preventing parties from playing fast
and loose with the courts to suit the exigencies of self
interest.” Id. (quoting In re Superior Crewboats, Inc., 374
F.3d 330, 334 (5th Cir. 2004)) (additional citations
omitted). In order for judicial estoppel to operate, three
particular requirements must be met: “(1) the party is
judicial estopped only if its position is clearly inconsistent
with the previous one; (2) the court must have accepted
the previous position; and (3) the non-disclosure must not
have been inadvertent.” Id. at 385-86 (quoting Superior
Crewboats, 374 F.3d at 335). Importantly, “[b]ecause the
rule is intended to prevent improper use of judicial
machinery, judicial estoppel is an equitable doctrine
invoked by a court at its discretion[.]” New Hampshire v.
Maine, 532 U.S. 742, 750, 121 S. Ct. 1808, 149 L. Ed. 2d
968 (2001) (citations omitted); see also Admiral Ins. Co.,
Inc. v. Arrowood Indem. Co., 471 B.R. 687, 708 (N.D. Tex.
2012) (citing Hall v. GE Plastic Pac. PTE, Ltd., 327 F.3d
391, 396 (5th Cir. 2003)) (“Judicial estoppel is an equitable
doctrine, and the decision whether to invoke it is within
the court’s discretion.”).
As an initial point, the Court is not persuaded that the
content of the Notice of Criminal Disposition is
inconsistent with Webster County’s position in this case.
Robinson has not emphasized, and the Court has not
located, any language in the Notice of Criminal
Disposition wherein Webster County specifically

16a
represented that no furloughs were granted during
Patterson’s period of incarceration. Rather, the Notice of
Criminal Disposition simply lists dates of confinement.
This particular section of the Notice of Criminal
Disposition contains no warranty that the period of
confinement was continuous, and the Court finds no
reason to imply that such a representation was made by
Webster County. Therefore, the fact that Patterson was
granted a furlough during the period of his confinement
does not necessarily render Webster County’s position in
this case inconsistent with the Notice of Criminal
Disposition filed in the criminal case. Thus, the Court
finds that Robinson has not established that the first
element of judicial estoppel.
The Court also notes that the application of the judicial
estoppel doctrine on these facts would not achieve equity.
The content of the Notice of Criminal Disposition does not
affect the amount of control which Webster County
maintained over Patterson at the time of the subject
incident. In other words, whether Webster County
possessed any control whatsoever over Patterson on the
night in question is completely unaffected by the content
of the Notice of Criminal Disposition. It is undisputed
that Patterson was in Webster County’s custody prior to
the night in question, that he was released from custody
for a period of time which included the night in question,
and that he later returned to custody. The actual control,
or lack thereof, that Webster County exercised over
Patterson, rather than the content of a Notice of Criminal
Disposition in a state court proceeding, should govern the
issue of liability in this case. See U.S. ex rel. Long v.
GSDMIdea City, L.L.C., 798 F.3d 235, 272 (5th Cir. 2015)
(emphasizing district courts’ discretion as to whether to

17a
apply judicial estoppel); Reed v. City of Arlington, 650
F.3d 571, 574 (5th Cir. 2011) (additional citation omitted)
(“[D]ifferent considerations may inform [judicial
estoppel’s] application in specific factual contexts.”).
Robinson’s attempt to utilize the content of the Notice of
Criminal Disposition in the present manner constitutes an
effort to obtain an unfair result through a technicality.
See Pegg v. Steel Dynamics, Inc., 2018 WL 1247874, *4
(N.D. Miss. Mar. 9, 2018) (declining to apply judicial
estoppel when defendant’s argument was “insufficient to
establish that the Plaintiff intended to obtain an unfair
advantage, or to take advantage of the judicial system.”);
King v. Cole’s Poultry, LLC, 2016 WL 7191701, *5 (N.D.
Miss. Dec. 12, 2016) (refusing to apply judicial estoppel on
the basis that party “appear[ed] to be attempting to utilize
the equitable doctrine of judicial estoppel to escape
liability in an inequitable manner.”); Sherman v. WalMart Associates, Inc., 550 B.R. 105, 110 (N.D. Tex. Apr.
25, 2016) (“Finding no threat to the integrity of the
judicial system, the Court declines to apply judicial
estoppel in this case.”).
Ultimately, as noted above, the purpose of the judicial
estoppel doctrine is to protect the integrity of the court
judicial process by preventing parties from obtaining an
unfair advantage by taking inconsistent positions in
litigation. Kane, 535 F.3d at 385. The integrity of the
judicial process will not be undermined by the Court’s
refusal to apply judicial estoppel on these facts. In fact,
the Court’s refusal to apply the doctrine under these
circumstances will achieve fairness and will allow the
liability analysis to be determined by the underlying facts,
rather than a procedural technicality. The Court declines
to apply judicial estoppel, and Robinson’s Motion to Strike

18a
[31] is therefore denied.
II. Motions for Judgment on the Pleadings
Rule 12(c) of the Federal Rules of Civil Procedure
authorizes a party to move for judgment on the pleadings.
FED. R. CIV. P. 12(c). “A Rule 12(c) motion may dispose
of a case when there are no disputed material facts and the
court can render a judgment on the merits based on the
substance of the pleadings and any judicially noted facts.”
Walker v. Beaumont Indep. Sch. Dist., 938 F.3d 724, 734
(5th Cir. 2019).
“A motion for judgment on the pleadings pursuant to
Rule 12(c) of the Federal Rules of Civil Procedure is
subject to the same standard as a Rule 12(b)(6) motion to
dismiss.” Salts v. Moore, 107 F.Supp.2d 732, 735 (N.D.
Miss. 2000). Accordingly, “[t]he central issue is whether,
in the light most favorable to the plaintiff, the complaint
states a valid claim for relief.” In re Katrina Breaches
Litig., 495 F.3d 191, 205 (5th Cir. 2007) (citations omitted).
Stated differently, “the issue is not whether the plaintiff
will ultimately prevail, but whether it is entitled to offer
evidence to support its claims.” Oceanic Exploration Co.
v. Phillips Petroleum Co. ZOC, 352 F. App’x 945, 950 (5th
Cir. 2009) (citing Ferrer v. Chevron Corp., 484 F.3d 776,
780 (5th Cir. 2007)). The Court will “accept well-pleaded
facts as true and construe the complaint in the light most
favorable to the plaintiff, but . . . [will] not accept as true
‘conclusory allegations, unwarranted factual inferences,
or legal conclusions.’” Id. (citing Ferrer, 484 F.3d at 780).
A. Motions for Dismissal of Improper Defendants [18, 20]
Through two separate Motions for Judgment on the
Pleadings [18, 20], the Defendants jointly contend that the
Court should dismiss all official capacity claims against

19a
Sheriff Mitchell and Dispatcher Townsend and further
contend that the Court should dismiss each of Robinson’s
claims against the Webster County Sheriff’s Department.
Robinson did not respond to either of these motions.
Unlike suits against officers in their personal
capacities, suits brought against officers in the official
capacities “generally represent only another way of
pleading an action against an entity of which an officer is
an agent.” Monell v. N.Y.C. Dep’t of Social Svcs, 436 U.S.
658, 690 n. 55, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). “As
long as the government entity receives notice and an
opportunity to respond, an official-capacity suit is, in all
respects other than name, to be treated as a suit against
the entity.” Estate of Manus v. Webster Cty., Miss., 2014
WL 1285946, at *2 (N.D. Miss. Mar. 31, 2014) (reversed in
part on other grounds) (quoting Kentucy v. Graham, 473
U.S. 159, 166, 105 S. Ct. 3099, 87 L. Ed. 2d 114 (1985)).
Therefore, “the dismissal of allegations against municipal
officers in their official capacities is proper when the
allegations duplicate claims against the governmental
entity itself.” Id. (citing Castro Romero v. Becken, 256
F.3d 349, 355 (5th Cir. 2001)).
Because Robinson makes no distinction between her
claims against Sheriff Mitchell and Dispatcher Townsend
and her claims against Webster County, her claims as to
Sheriff Mitchell and Dispatcher Townsend in their
respective official capacities are duplicative of her claims
against Webster County. For these reasons, Robinson’s
official capacity claims against Sheriff Mitchell and
Dispatcher Townsend are dismissed.
The Defendants also contend that Webster County
Sheriff’s Department is not a separate legal entity subject
to suit, warranting dismissal of all claims against it. The

20a
Defendants aver that, rather that the Sheriff’s
Department, Webster County is the appropriate
defendant as to all claims related to the conduct of the
Webster County Sheriff’s Department or any of its
officials because the Sheriff’s Department is an extension
of the County itself pursuant to well-settled Mississippi
law.
The capacity of a Sheriff’s Department to be sued is
governed by state law. Fed. R. Civ. P. 17(b)(3). Although
the Mississippi Code authorizes suit against “[e]very
municipality of this state[,]” it does not authorize suit
against a municipality’s police or sheriff’s department.
Miss. Code Ann. § 21-17-1(1); Jackson v. City of Gulfport,
2017 WL 651956, *2 (S.D. Miss. Feb. 16, 2017). In other
words, “a [sheriff’s] department is not a separate legal
entity that may be sued. Rather, it is an extension of the
city.” Id.; see also Brown v. Thompson, 927 So.2d 733, 737
(Miss. 2006) (holding that a sheriff’s department does not
enjoy a separate legal existence apart from the county in
which it operates and is therefore not subject to suit);
Stovall v. City of Hattiesburg, 2010 WL 1908313, at *1-2
(S.D. Miss. May 17, 2010) (dismissing the Hattiesburg
Police Department as a defendant because the City of
Hattiesburg was the appropriate defendant).
In accordance with this well-settled authority, the
Court finds that Webster County Sheriff’s Department
lacks the capacity to be sued. Webster County, not the
Webster County Sheriff’s Department, is the proper
entity against which Robinson’s claims should be made.
The Webster County Sheriff’s Department is not a proper
defendant in this action and is therefore dismissed.
B. Webster County and Tim Mitchell’s Motions for
Judgment on the Pleadings [22, 35]

21a
In its separate Motion for Judgment on the Pleadings
[22], Webster County seeks judgment in its favor on all
Section 1983 claims asserted against it. Sheriff Mitchell
also filed his own Motion [35], arguing that all claims
asserted against him in his individual capacity should be
dismissed pursuant to the qualified immunity doctrine. As
discussed below, the same issue is dispositive as to both of
these motions, so the Court will address them jointly.
a. Section 1983 Claims
“Regarding Section 1983, the United States Supreme
Court has held that the statute’s ‘very purpose . . . was to
interpose the federal courts between the States and the
people, as guardians of the people’s federal rights—to
protect the people from unconstitutional action under
color of state law.’” Alexander v. McAdams, 2017 WL
5642328, *3 (N.D. Miss. Apr. 18, 2017) (quoting Mitchum
v. Foster, 407 U.S. 225, 242, 92 S.Ct. 2151, L.Ed.2d 705
(1972)) (emphasis in original). In order to state a claim
under Section 1983, a plaintiff must “(1) allege he has been
deprived of a right secured by the United States
Constitution or the laws of the United States; and (2)
demonstrate that the alleged violation was committed by
a person acting under color of state law.” Weeks v.
Thompson, 2007 WL 316261, *2 (N.D. Miss. Jan. 31, 2007)
(citing Cornish v. Correctional Services Corp., 402 F.3d
545, 549 (5th Cir. 2005)).
Undoubtedly, different standards are applicable to a
Section 1983 claim against a municipality and an individual
capacity claim against a law enforcement officer. See
Weeks, 2007 WL 316261, at *2 (“Municipal liability under
section 1983 requires proof of (1) a policymaker, (2) an
official policy, and (3) a violation of constitutional rights
whose ‘moving force’ is the policy or custom.”); Mangieri

22a
v. Clifton, 29 F.3d 1012 (5th Cir. 1994) (holding that law
enforcement officers are entitled to qualified immunity
“unless it is shown that, at the time of the incident, [the
officer] violated a clearly established constitutional
right.”). Nevertheless, whether seeking to impose liability
against a municipality or an individual officer, a Section
1983 plaintiff must first allege that she has been deprived
of a right secured by the United States Constitution or
federal law. Victoria W. v. Larpenter, 369 F.3d 475, 482
(5th Cir. 2004) (holding that in order to establish a Section
1983 claim, there must be “a deprivation of a right secured
by federal law[.]”). If the plaintiff has not been deprived
of a federal constitutional or statutory right, there can be
no viable Section 1983 claim. Id. In their separate
Motions, both Webster County and Sheriff Mitchell assert
that Robinson has not properly stated a Section 1983 claim
because she has not alleged a deprivation of a right
secured by the United States Constitution or federal law.
As set forth above, Robinson’s Complaint sets forth
Section 1983 claims related to purported violations of her
Fourteenth, Fourth, and Eighth Amendment rights. The
Court will address each of these allegations in turn.
i. Fourteenth Amendment Claims
The Due Process Clause of the Fourteenth
Amendment provides that “[n]o State shall . . . deprive any
person of life, liberty, or property, without due process of
law.” U.S. Const. amend. XIV, § 1. Concerning the scope
of the clause, “[t]here can be no dispute that the
Fourteenth Amendment includes as a liberty interest ‘a
right to be free from . . . unjustified intrusions on personal
security.’” Bright for Doe v. Tunica Cty. Sch. Dist., 2017
WL 3996409, *5 (N.D. Miss. Sept. 11, 2017) (quoting
Ingraham v. Wright, 430 U.S. 651, 673, 97 S. Ct. 1401, 51

23a
L. Ed. 2d 711 (1977)).
Although the Due Process Clause provides a general
protection from unjustified intrusions on personal
security, “a state official has no constitutional duty to
protect an individual from private violence.” McClendon
v. City of Columbia, 305 F.3d 315, 324 (5th Cir. 2002)
(citing DeShaney v. Winnebago Cty. Dep’t of Soc. Servs.,
489 U.S. 189, 197, 109 S. Ct. 998, 103 L. Ed. 2d 249 (1989)).
Stated differently, “a State’s failure to protect an
individual against private violence simply does not
constitute a violation of the Due Process Clause.” Rivera
v. Houston Indep. Sch. Dist., 349 F.3d 244, 247 (5th Cir.
2003) (citing DeShaney, 489 U.S. at 197). Nevertheless,
“some courts have allowed two possible exceptions to that
general rule . . .: (1) when the state has a ‘special
relationship’ with the citizen, such as when the state takes
the person into custody or otherwise limits the person’s
freedom to act on his or her own behalf; and (2) when the
state has created the danger that led to the person’s
injury[.]” Id. at *28-29 (citing DeShaney., 489 U.S. at 19596, 109 S. Ct. 998) (additional citations omitted).
Robinson first contends the general prohibition of
Section 1983 liability based upon private violence is
altogether inapplicable because, even though he was an
inmate, Patterson was a state actor at the time of the
incident. In other words, she alleges that her injuries
were not caused by private violence. In support of this
theory, Robinson contends that “Patterson operated as a
‘willful participant in joint activity with the State or its
agents’ (1) when he left the Webster County Jail with the
express permission of Sheriff Mitchell, who had actual
knowledge of his penchant for harming Mrs. Robinson and
(2) by virtue of him serving as a trusty, which made him a

24a
quasi-employee of the County.”
Other district courts in the Fifth Circuit have declined
to deem a party a state actor for Section 1983 purposes
simply due to an unrelated relationship with the state.
See, e.g., Allard v. Quinlan Pest Control Co. Inc., 2011
WL 5025149, *5 (N.D. Tex. Sept. 14, 2011) (“District
courts in this circuit have . . . held that a private,
independent contractor does not become a state actor by
virtue of being hired by the state.”); Hatton v. Henderson
Cty. Jail, 2009 WL 2744896, slip op., *6 (E.D. Tex. Aug.
24, 2009) (holding that a construction company hired by a
county jail which employed an inmate as a trusty was not
a state actor); Plummer v. Valdez, 2006 WL 2713784, slip
op., *2 (N.D. Tex. Sept. 21, 2006) (holding that a private
company providing products for sale to inmates was not a
state actor). Robinson cites no authority in support of her
position that an individual becomes a state actor merely
because of an unrelated relationship with the state, and
the Court sees no reason to effectively expand the
definition of a state actor for Section 1983 purposes under
these particular circumstances.4
Further supporting this finding, the Fifth Circuit has
previously found the general rule prohibiting the
imposition of liability due to private violence applicable
under similar facts. See McClendon, 305 F.3d at 324. In
McClendon, a City of Columbia police detective, after
learning that an altercation was likely to ensue between
the confidential informant and one of his targeted
suspects, loaned a gun to a confidential informant so that
the informant could protect himself. Id. at 319. After the
This contention is more appropriately categorized as an argument in
support of the state-created danger theory, which the Court will
address at length below.

4

25a
confidential informant shot and injured the targeted
suspect using the gun provided to him by the detective,
the suspect filed suit against, among others, the City of
Columbia. Id. The Fifth Circuit ultimately affirmed the
district court’s ruling that the underlying facts did not give
rise to a constitutional violation because, even though he
utilized a state-provided weapon, the confidential
informant was a private actor for Section 1983 purposes at
the time he inflicted the injury. Id. at 324.5
The Court finds McClendon persuasive on this issue.
In McClendon, the confidential informant was arguably
acting in furtherance of an objective of the State when he
was involved in the altercation giving rise to the purported
constitutional violation as he was seeking to obtain
information for utilization by the State. The Fifth Circuit
nevertheless deemed him a private actor for Section 1983
purposes. Here, Patterson was undoubtedly not acting to
further any purpose of the State at the time he inflicted
the injuries upon Robinson. Other than the fact that he
was on furlough, Patterson had no connection to Webster
County whatsoever. Though he had been named a trusty
at the Webster County Jail, Robinson’s Complaint makes
no allegation that Patterson was acting in furtherance of
any duties related to that position at the relevant time.
Thus, even taking all of Robinson’s allegations as true, the
Court finds that Patterson was acting in his private
capacity at the time of the subject incident and, therefore,
that Robinson was subjected to private violence.
Because Robinson was subjected to private violence,
Other authorities also support this finding. See, e.g., O’Meara v.
Pearl River Cty. Jail, 2009 WL 801728, *1 (S.D. Miss. Mar. 25, 2009)
(holding that an inmate who committed assault while in custody
remained a private citizen for Section 1983 purposes).
5

26a
the Fourteenth Amendment provides her with no
protection unless she establishes that an exception to the
general rule is applicable. Rivera, 349 F.3d at 247.
Robinson argues in favor of both the “special relationship”
exception and the state-created danger exception.
Regarding the “special relationship” exception, the
Supreme Court has held that “in certain limited
circumstances the Constitution imposes upon the State
affirmative duties of care and protection with respect to
particular individuals.” DeShaney, 489 U.S. at 198.
“When the state, through the affirmative exercise of its
powers, acts to restrain an individual’s freedom to act on
his own behalf ‘through incarceration, institutionalization,
or other similar restraint of personal liberty,’ the state
creates a ‘special relationship’ between the individual and
the state which imposes upon the state a constitutional
duty to protect that individual from dangers, including, in
certain circumstances, private violence.” McClendon, 305
F.3d at 324 (citing DeShaney, 498 U.S. at 200). The Fifth
Circuit has consistently expressed the narrow scope of the
“special relationship” exception, having only previously
extended it to circumstances where the state has
incarcerated a prisoner, involuntarily committed an
individual to an institution, or placed a child in foster care.
Doe v. Covington Cty. Sch. Dist., 675 F.3d 849, 855-56 (5th
Cir. 2012) (quoting DeShaney, 489 U.S. at 199-200, 109 S.
Ct. 998). The purpose of the exception is to place a duty
upon the State when it has imposed a limitation upon an
“individual’s freedom to act on his own behalf.” Id. at 856.
Arguing in favor of the applicability of the “special
relationship” exception, Robinson avers that “the County,
acting in deference to the interests of their inmate/trusty
(i.e., Patterson), effectively took Mrs. Robinson’s liberty

27a
under terms that provided no realistic means of escape
while giving her no means of providing for her own care or
safety.” Despite this assertion, Robinson’s Complaint
makes no claim that Webster County acted in any way to
restrict her liberty or freedom to act on her own behalf.
Although Robinson alleges that Dispatcher Townsend
acted negligently by failing to dispatch a deputy to her
home following her call to Robinson, Dispatcher
Townsend’s failure to do so did not create a “special
relationship” between Robinson and the County. In fact,
the Fifth Circuit has previously declined to extend the
“special relationship” exception when a city employee
failed to dispatch law enforcement to a particular location
after receiving a request to do so. Beltran v. City of El
Paso, 367 F.3d 299, 302 (5th Cir. 2004) (refusing to
recognize a “special relationship” where a 911 operator
received a call from a domestic abuse victim and stated
that the police would be sent to the victim’s residence but
never actually did so). Thus, regardless of whether
Dispatcher Townsend acted improperly by failing to
dispatch law enforcement to Robinson’s home, her failure
to do so did not create a “special relationship” between
Webster County and Robinson.
Taking each of Robinson’s allegations as true, Webster
County did not impose any restriction on Robinson’s
ability to act on her own behalf. Although Patterson, a
private individual, was purportedly in an enraged state at
her residence, Robinson maintained liberty to flee or take
other steps to protect herself. In light of these facts, along
with the “special relationship” exception’s narrow
applicability, the Court declines to apply it in this context.
Robinson also argues in favor of the state-created
danger theory. The state-created danger theory derives

28a
from the following language of the Supreme Court’s
opinion in DeShaney:
While the State may have been aware of the
dangers that Joshua faced in the free world,
it played no part in their creation, nor did it
do anything to render him any more
vulnerable to them. That the State once
took temporary custody of Joshua does not
alter the analysis, for which it returned him
to his father’s custody, it placed him in no
worse position than that in which he would
have been had in not acted at all . . .
DeShaney, 489 U.S. at 201. Courts have relied upon this
language for the proposition that “a state actor may be
liable under § 1983 if the state actor created or knew of a
dangerous situation and affirmatively placed the plaintiff
in that situation.” Bright, 2017 WL 3996409, at *7
(quoting Covington Cty. Sch. Dist., 675 F.3d at 864); see
also Cook v. Hopkins, 2019 WL 5866683, *5 (5th Cir. Nov.
8, 2019) (citing Bustos v. Martini Club Inc., 599 F.3d 458,
466 (5th Cir. 2010)) (noting that, pursuant to the statecreated danger theory, the state is liable “if it created or
exacerbated the danger of private violence against an
individual.”).
This Court has recently noted the extensive number of
circuits across the country that have recognized the statecreated danger theory as a basis for a due process claim.
Id. at *7, n. 5 (citations omitted)) (“Since DeShaney, the
Second, Third, Fourth, Sixth, Seventh, Eighth, Ninth,
Tenth, and D.C. Circuits have recognized the existence of
the state-created danger theory.”). However, while the
Fifth Circuit has previously outlined the applicable test
for the state-created danger theory, it has never adopted

29a
the theory. Morin v. Moore, 309 F.3d 316, 321-22 (5th Cir.
2002) (“In order to recover under the state-created
danger theory, we assume that a plaintiff would have to
show, at a minimum, that: (1) the state actors created or
increased the danger to the plaintiff and (2) the state
actors acted with deliberate indifference.”). The Fifth
Circuit has actually declined to adopt the state-created
danger theory on multiple occasions. See, e.g, Keller v.
Fleming, --- F.3d ---, 2020 WL 831757, at *7 (5th Cir. Feb.
20, 2020) (“[T]he Fifth Circuit has never recognized [the]
‘state-created-danger’ exception.”); Doe v. ColumbiaBrazoria Indep. Sch. Dist., 855 F.3d 681, 688 (5th Cir.
2017) (“Panels [in this circuit] have repeatedly noted the
unavailability of the [state-created danger] theory.”).
Thus, although the state-created danger theory is
recognized by most circuits across the country, it has
never been recognized as a viable theory for recovery in
the Fifth Circuit.
Robinson acknowledges that the state-created danger
theory is not viable in the Fifth Circuit but urges the
Court to apply the theory, asserting that the underlying
facts “should be persuasive enough for the Court of
Appeals to adopt this cause of action.” The Court notes
that the facts alleged by Robinson, including both Sheriff
Mitchell’s alleged knowledge as to Patterson’s violent
propensity prior to granting furlough to Patterson and
Dispatcher Townsend’s failure to dispatch law
enforcement to Robinson’s home and the failure to train
aspect associated therewith, appear to fall squarely within
the parameters of the state-created danger theory.
Taking Robinson’s allegations as true, the conduct of
Sheriff Mitchell and/or Dispatcher Townsend arguably
created or at least exacerbated the potential for private

30a
violence. Nevertheless, while the Court is certainly
sympathetic to Robinson’s position, as the allegations of
her Complaint would likely be enough to survive
judgment on the pleadings on the state-created danger
theory, this Court is duty bound to follow Fifth Circuit
precedent. See, e.g., Miss. ex rel. Hood v. Entergy Miss.,
Inc., 2012 WL 3704935, *7 n. 6 (S.D. Miss. Aug. 25, 2012)
(“This court is duty bound . . . to follow Fifth Circuit
precedent as it is written[.]”). Therefore, regardless of
this Court’s view on whether the state-created danger
theory should be adopted, it must follow Fifth Circuit
precedent. Accordingly, the Court declines to apply the
state-created danger theory in this case.
Ultimately, “[t]o state a Fourteenth Amendment due
process claim under Section 1983, ‘a plaintiff must first
identify a protected life, liberty or property interest and
then prove that governmental action resulted in a
deprivation of that interest.’” Little v. Miss. Dep’t of Pub.
Safety Bureau of Narcotics, 2017 WL 2999141, *9 (N.D.
Miss. July 13, 2017) (quoting Baldwin v. Daniels, 250 F.3d
943, 946 (5th Cir. 2001)). Because Robinson has not pled
a protected life, liberty, or property interest of which she
has been deprived, she has not alleged a violation of her
Fourteenth Amendment due process rights. Her Section
1983 claims related to a purported Fourteenth
Amendment fail as a matter of law.
ii. Fourth Amendment Claims
Robinson also asserts Section 1983 claims based upon
Fourth Amendment violations, contending that her
Fourth Amendment rights were violated when Robinson
attempted to seize her person, attempted to prohibit her
from leaving her own home, and abused her. “The Fourth
Amendment provides that ‘[t]he right of the people to be

31a
secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be
violated . . .’ The Amendment guarantees the privacy,
dignity, and security of persons against certain arbitrary
and invasive acts by officers of the Government or those
acting at their direction.” Skinner v. Railway Labor
Executives’ Ass’n, 489 U.S. 602, 613-14, 109 S. Ct. 1402,
103 L. Ed. 2d 639 (1989) (citing Camara v. Municipal
Court of San Francisco, 387 U.S. 523, 528, 87 S. Ct. 1727,
18 L. Ed. 2d 930 (1967)) (additional citations omitted).
“Although the Fourth Amendment does not apply to a
search or seizure, even an arbitrary one, effected by a
private party on his own initiative, the Amendment
protects against such intrusions if the private party acted
as an instrument or agent of the Government.” Id. at 614
(citations omitted).
Like her Fourteenth Amendment claims, Robinson’s
Fourth Amendment claims fail as a matter of law because,
as the Court finds above, the injuries which were inflicted
upon her were inflicted by a private party. Other than a
generalized statement that Patterson was “at all material
times controlled by an agency of the State[,]” Robinson
has not alleged that Patterson was acting as an instrument
or agent of Webster County. As set forth above, the Court
finds the fact that Patterson was appointed as a trusty by
Sheriff Mitchell irrelevant to the analysis, as Patterson
was not acting in his furtherance of his duties as a trusty
when he was released on furlough. Therefore, regardless
of the conduct in which Patterson engaged, a Fourth
Amendment search or seizure did not occur, and she
cannot survive the present Motions as to her Fourth
Amendment claims.
Ultimately, in order to survive a motion for judgment

32a
on the pleadings as to a Section 1983 claim, a plaintiff must
allege a deprivation of a right secured by the Constitution
or by federal law. Baker v. McCollan, 443 U.S. 137, 140,
99 S. Ct. 2689, 61 L. Ed. 2d 433 (1979) (“The first inquiry
in any § 1983 suit . . . is whether the plaintiff has been
deprived of a right secured by the Constitution and the
laws.”). Because Robinson has not pled a deprivation of a
federal constitutional or statutory right, her Section 1983
claims fail as a matter of law and are therefore dismissed.
iii. Eighth Amendment Claims
In addition to her Fourteenth and Fourth Amendment
claims, Robinson’s Complaint also asserts Section 1983
claims based upon purported Eighth Amendment
violations, specifically on the basis that “as a state actor,
Patterson had the duty to refrain from beating Mrs.
Robinson senseless and dousing her nearly naked body
with sulfuric acid.” In its Motion, Webster County also
seeks dismissal of Robinson’s Eighth Amendment claims.
In her Response, Robinson does not address Webster
County’s argument and appears to abandon her Eighth
Amendment claims altogether. Because the Eighth
Amendment provides protection to an individual only
after a conviction and since she was never convicted of any
crime, Robinson’s Eighth Amendment claims also fail as a
matter of law. See, e.g., Gonzalez-Rivera v. Mota, 2008
WL 11411970, *5 n.1 (W.D. Tex. Aug. 14, 2008) (citing
Carlton v. Fearneyhough, 2008 WL 686595, *2 (5th Cir.
2008)) (“The Eighth Amendment applies only to persons
convicted of crimes and is inapplicable to plaintiff’s
excessive force claim.”). Robinson’s Section 1983 claims
based upon the Eighth Amendment are therefore
dismissed.

33a
b. State Law Claims
Webster County also requests that the Court decline
to exercise supplemental jurisdiction over Robinson’s
myriad of state law claims. Pursuant to 28 U.S.C.
§ 1367(c), district courts may decline to exercise
supplemental jurisdiction over a claim if “(1) the claim
raises a novel or complex issue of state law, (2) the claim
substantially predominates over the claim or claims over
which the district court has original jurisdiction, (3) the
district court has dismissed all claims over which it has
original jurisdiction, or (4) in exceptional circumstances,
there are other compelling reasons for declining
jurisdiction.” Seals v. Mississippi, 998 F.Supp.2d 509,
526-27 (N.D. Miss. 2014). In making its determination as
to whether to exercise supplemental jurisdiction, “the
court is guided by the . . . statutory factors as well as the
common law factors of judicial economy, convenience,
fairness, and comity.” Id. at 527 (citing Mendoza v.
Murphy, 532 F.3d 342, 346 (5th Cir. 2008)). In the Fifth
Circuit, “the general rule is that a court should decline to
exercise jurisdiction over remaining state-law claims
when all federal-law claims are eliminated before trial[.]”
Id. (quoting Brookshire Bros. Holding, Inc. v. Dayco
Prod. Inc., 554 F.3d 595, 602 (5th Cir. 2009)); see also
Sahlein v. Red Oak Capital, Inc., 2015 WL 736340, *2
(N.D. Miss. Feb. 20, 2015) (citations omitted) (“[T]he Fifth
Circuit has stated that its general rule is to decline to
exercise jurisdiction over pendent state-law claims when
all federal claims are dismissed or otherwise eliminated
from a case prior to trial.”).
Having determined that Robinson’s federal claims fail
as a matter of law, the Court, in accordance with the
general rule in the Fifth Circuit, declines to exercise

34a
supplemental jurisdiction over the pending state law
claims. The only federal claims not dismissed as a result
of this Order are the claims asserted against Patterson,
for which default has been entered due to his failure to file
a responsive pleading. Thus, all federal claims have been
eliminated either via adverse judgment through this
Order or through the entry of a procedural default, and
the Fifth Circuit’s general rule therefore supports
declining to exercise supplemental jurisdiction.
The Court’s decision to decline to exercise
supplemental jurisdiction is particularly warranted in this
case, in light of the fact that this action was only recently
instituted and no discovery has yet been conducted by the
parties. The parties therefore will not suffer any real
harm as a result of the dismissal of the state law claims
without prejudice.
The Court will not exercise
jurisdiction over Robinson’s state law claims.6
Conclusion
For the reasons set forth in detail above, Robinson’s
Motion for Hearing [50] and Motion to Strike [31] are
DENIED. The Defendants’ Motions for Judgment on the
Pleadings concerning improper parties [18, 20] are
GRANTED. All official capacity claims against Sheriff
Mitchell and Dispatcher Townsend, as well as all claims
against the Webster County Sheriff’s Department, are
dismissed with prejudice. Webster County and Sheriff
Mitchell’s Motions for Judgment on the Pleadings [22, 35]
The Court notes that Robinson filed a Motion for Judgment on the
Pleadings as to Dispatcher Townsend’s counterclaim for defamation
of character [26]. Because the counterclaim is a state law claim and in
light of the Court’s foregoing decision to decline to exercise
supplemental jurisdiction, the Motion will be dismissed without
prejudice.

6

35a
are GRANTED as to all federal claims asserted by
Robinson. All federal claims asserted by Robinson
against Webster County, Sheriff Mitchell, and/or
Dispatcher Townsend are dismissed with prejudice. The
Court declines to exercise supplemental jurisdiction over
all state law claims asserted by Robinson, and those
claims are therefore dismissed without prejudice.
Robinson’s Motion for Judgment on the Pleadings as to
Dispatcher Townsend’s Counterclaim [26] is dismissed
without prejudice. The Court retains jurisdiction solely
as to Robinson’s claims against Patterson for which
default has been entered.
SO ORDERED, this the 11th day of March, 2020.
/s/Sharion Aycock
UNITED STATES DISTRICT JUDGE

36a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
FELICIA ROBINSON
V.
WEBSTER COUNTY,
MISSISSIPPI; WEBSTER
COUNTY SHERIFF’S
DEPARTMENT; TIM
MITCHELL; SANTANA
TOWNSEND; DAREN
PATTERSON;

PLAINTIFF
CIVIL ACTION
NO. __________

AND
JOHN DOES 1-30, being
those persons, firms,
corporations, or other
entities who are in any way
responsible to the Plaintiff
for the damages and
injuries sustained herein,
and whose identities are at
this time unknown, but will
be added by amendment
when ascertained

JURY TRIAL
DEMANDED

DEFENDANTS

37a

COMPLAINT

COMES NOW the Plaintiff, FELICIA ROBINSON,
by and through counsel, who files this Complaint against
the Defendants, WEBSTER COUNTY, MISSISSIPPI;
WEBSTER COUNTY SHERIFF’S DEPARTMENT;
TIM MITCHELL; SANTANA TOWNSEND; DAREN
PATTERSON; and JOHN DOES 1-30, and would show
unto the Court as follows, to wit:
*

*

*

*

*

PRELIMINARY STATEMENT
1. This is a federal civil-rights/state tort-claims action
brought by Felicia Robinson against Webster County,
Mississippi; the Webster County Sheriff’s Department;
former Sheriff Tim Mitchell; former dispatcher Santana
Townsend; and Daren Patterson, who was a pretrial
detainee/inmate1 at the Webster County Jail.
2. On September 1, 2018, Patterson was released
from jail on a weekend furlough by Sheriff Tim Mitchell.
That evening, Patterson tried to kill Mrs. Robinson, who
is his wife, by pursuing her with a car as she ran. The
Eupora Police Department prepared an incident report
and informed Sheriff Mitchell accordingly. Nevertheless,
Sheriff Mitchell released Patterson for another weekend
furlough on November 2, 2018, knowing full well that
Hereinafter, the word “inmate” includes pretrial detainees and
persons convicted of crimes.
1

38a
Patterson would return to his wife and terrorize her.
3. On November 2, 2018, the furloughed Patterson
punched a hole in the wall of Mrs. Robinson’s house. In
response, she called Townsend for help. However, instead
of dispatching a deputy to retrieve the belligerent
Webster County inmate, Townsend gave the phone to
another inmate to speak to Patterson. After talking with
the other inmate, Patterson seethed with unbridled fury
until he drenched Mrs. Robinson’s nearly naked body with
sulfuric acid, causing sixteen (16) second- and thirddegree burns.
PARTIES
4. The Plaintiff, FELICIA ROBINSON (“Mrs.
Robinson” or “Plaintiff”) is an adult resident citizen of
Webster County, Mississippi.
5. Defendant WEBSTER COUNTY, MISSISSIPPI
(“Webster County” or “County”) is a political subdivision
of the State of Mississippi. At all material times, the
County acted under color of law. The County may be
served with process by delivering a copy of the Summons
and Complaint to the Hon. Russell Turner, Chancery
Clerk of Webster County, Mississippi, 16 East Fox
Avenue, Eupora, Mississippi 39744.
6. Defendant WEBSTER COUNTY SHERIFF’S
DEPARTMENT (“WCSD”) is an agency of Webster
County. At all material times, WCSD acted under color of
law. WCSD may be served with process by delivering a
copy of the Summons and Complaint to Sheriff pro
tempore Andy McCants (or whomever may have been
appointed Sheriff by the time of service), 321 East Gould
Avenue, Eupora, Mississippi 39744.

39a
7. Defendant TIM MITCHELL (“Sheriff Mitchell”)
is an adult resident citizen of Webster County,
Mississippi. From January 1, 2012, through June 12, 2019,
Sheriff Mitchell was the duly elected Sheriff of Webster
County, acting under color of law. He is awaiting
sentencing for crimes that he committed while serving as
the Webster County Sheriff. Until he is sentenced, Sheriff
Mitchell may be served with process at 760 Hobby Road,
Eupora, Mississippi 39744.
8. Defendant
SANTANA
TOWNSEND
(“Townsend”) is an adult resident citizen of Webster
County, Mississippi. At all material times, she was a
dispatcher for WCSD who acted under color of law.
Townsend has since been terminated from her duties.
Townsend may be served with process at 120 West
Figgatt Avenue, Eupora, Mississippi 39744.
9. Defendant DAREN PATTERSON (“Patterson”)
is an adult resident citizen of Webster County,
Mississippi. Patterson may be served with process at the
Chickasaw County Jail, 130 Lancaster Circle, Houston,
Mississippi 38851.
10. Defendants JOHN DOES 1-30 are those persons,
firms, corporations or other entities who are in any way
responsible to the Plaintiff for the damages she has
sustained and whose identities are at this time unknown
but will be added by appropriate amendments when
ascertained.
JURISDICTION AND VENUE
11. This Court has federal question jurisdiction under
28 U.S.C. § 1331 and civil rights jurisdiction under 28
U.S.C. § 1343 for causes of action arising under the

40a
Fourth, Eighth, and Fourteenth Amendments to United
States Constitution. The federal causes of action are
brought pursuant to 42 U.S.C. § 1983. Plaintiff seeks
declaratory judgment pursuant to 28 U.S.C. § 2202.
Plaintiff also seeks attorney’s fees pursuant to 42 U.S.C.
§ 1988. This Court has supplemental jurisdiction over all
state law claims referenced herein pursuant to 28 U.S.C.
§ 1367. Plaintiff requests injunctive relief pursuant to
Rule 65 of the Federal Rules of Civil Procedure.
12. Regarding her claims made pursuant to the
Mississippi Tort Claims Act (Miss. Code Ann. §§ 11-46-1,
et seq.) (“MTCA”), Plaintiff served the requisite written
notices to the Webster County Chancery Clerk (via
certified mail) and to Sheriff Mitchell and Sheriff pro
tempore Andy McCants (both via personal delivery) on or
before March 11, 2019.2 Plaintiff may now file suit because
more than ninety-five (95) days have elapsed since these
letters were delivered. See Miss. Code Ann. § 11-46-11
(3)(a) & (b).3 Therefore, sovereign immunity is waived
See Exhibit “1” (Redacted Tort Claims Letter) and Exhibit “2”
(Proof of Service), incorporated herein by reference and made a part
hereto.
2

3

Miss. Code Ann. § 11-46-11 reads in pertinent part:
(3) (a) … [F]iling a notice of claim within the
required one-year period will toll the statute of
limitations for ninety-five (95) days from the date
the chief executive officer of the state entity or the
chief executive officer or other statutorily
designated official of a political subdivision receives
the notice of claim.
(b) No action whatsoever may be maintained by the
claimant until … the tolling period expires….”

41a
subject to the provisions of the MTCA.
13. This Court has personal jurisdiction over the
parties because each Defendant may be found in this
State, because the causes of action accrued in this judicial
district, and because personal jurisdiction would not
violate the traditional notions of fair play and substantial
justice.
14 Venue is appropriate in the Northern District of
Mississippi pursuant to 28 U.S.C. § 1391 because a
substantial part of the events or omissions giving rise to
the claims occurred in this judicial district and because at
least one defendant may be found here.
FACTS COMMON TO ALL COUNTS
Background Information
15. For years, Mrs. Robinson has been subject to
psychological manipulation and physical abuse from her
husband, Patterson.
Throughout their turbulent
relationship, she has vacillated from wanting his approval
to wanting to be free from his oppressive behavior to being
afraid for her very life – often experiencing these emotions
at the same time. Occasionally, Mrs. Robinson would
stand up for herself. Often, though, she would assume the
position of his punching bag.
16. On January 10, 2014, Patterson was convicted of
felony possession of cocaine (second offense). He was
sentenced to eight (8) years in the custody of the
Mississippi Department of Corrections (“MDOC”), with
four (4) years to serve in prison and four (4) years on postrelease supervision. As a condition of his post-release
supervision, Patterson was prohibited from breaking any
laws of this State or consuming alcohol or drugs.

42a
Figure 1 – Exhibit A to Exhibit 1
(Sentencing Order for Daren Patterson)
IT IS, THEREFORE, ORDERED
that
the
defendant,
DAREN
PATTERSON, be and he is hereby
sentenced to serve a term of EIGHT (8)
YEARS with the Mississippi Department of
Corrections.
After the defendant has
served a period of FOUR (4) YEARS the
Mississippi Department of Corrections is
hereby ordered to place him in a program of
post-release supervision pursuant to
Section 47-7-34 of the Mississippi Code of
1972 for a period of FOUR (4) YEARS,
provided the defendant has abided by all of
the rules and regulations of the Mississippi
Department of Corrections during his
period of incarceration. The defendant is
ordered to pay a fine in the amount of $500
and all court costs, fees, and assessments in
this cause all to be paid within ONE (1)
YEAR of the date of release from
incarceration.
17. Patterson was released from prison in January
2018. On May 29, 2018, while on probation, Patterson
caused bodily harm to Officer Casey Henderson of the
Eupora Police Department (“Officer Henderson”).
Patterson also had methamphetamine on his person.
Patterson was arrested and placed in the Webster County
Jail.

43a
Figure 2 – Exhibit B to Exhibit 1
(Indictment of Daren Patterson – 2018)
COUNT I
DAREN PATTERSON
On or about May 29, 2018 in Webster
County, Mississippi, and within the
jurisdiction of this Court, did willfully,
unlawfully, feloniously and purposely,
knowingly or recklessly caused bodily
injury to Casey Henderson, a Law
Enforcement Officer, while he was acting
within the scope of his duty, office or
employment, in violation of Section 97-37(1)(a)(b) and (14) of the Mississippi Code of
1972, as amended, constituting a common
plan or scheme or related series of acts or
transactions, and against the peace and
dignity of the State of Mississippi, and that;
COUNT II
DAREN PATTERSON
On or about May 29, 2018 in Webster
County, Mississippi, and within the
jurisdiction of this Court, did willfully,
unlawfully, feloniously and knowingly or
intentionally possess one-tenth (0.1) gram
or more but less than two (2) grams of
Methamphetamine,
a
Schedule
II
Controlled Substance, in violation of
Section 41-29-139(c)(1)(B) of the Mississippi
Code of 1972, as amended, constituting a

44a
common plan or scheme or related series of
acts or transactions, and against the peace
and dignity of the State of Mississippi, and
that;
18. On July 10, 2018, the Eupora Municipal Court
conducted a preliminary hearing. The Court set bond at
$10,000 for the charge of assaulting a police officer.
Figure 3 – Exhibit C to Exhibit 1
(Order Binding Daren Patterson)
Having heard the evidence at
preliminary hearing, the court finds that
there is adequate and substantial probable
cause to believe that the defendant has
committed the felony crime charged. The
defendant Daren Patterson, is hereby
bound over to the action of the Webster
County Grand Jury on the charge of Simple
Assault on Police Officer and ordered to
appear before the Circuit Court of Webster
County at 9:00 A.M. on the 14th day of
January 2018 to await the action of the
Grand Jury. Defendant’s bond, returnable
to Webster County Circuit Court, is fixed at
$10,000.00.
19. Patterson never posted bond.
Therefore,
Patterson remained in the legal and physical custody of
the WCSD from May 30, 2018, to November 20, 2018.

45a
Figure 4 – Exhibit D to Exhibit 1
(Notice of Criminal Disposition)

20. On or before September 1, 2018, Sheriff Mitchell
made Patterson a trusty at the Webster County Jail.
Patterson was given special responsibilities and privileges
by virtue of being a trusty.
21. On November 20, 2018, Patterson’s post-release
supervision was revoked due to his May 29, 2018, arrest.
He was sentenced to serve the remaining four years of his
2014 sentence in prison.
Figure 5 – Exhibit E to Exhibit 1
(Order Revoking Post-Release Supervision)
ORDERED
that the Four (4) Years of Post Release
Supervision in this cause be and hereby is
revoked and the Defendant, DAREN
PATTERSON, is ordered to serve the said
Four (4) Years in the custody of the
Mississippi Department of Corrections.
SO ORDERED AND ADJUDGED on this,
the 20th day of November, 2018.
/s/
George M. Mitchell, Jr.
Circuit Court Judge

46a
September 2018 (Abusive Incident #1)
22. On September 1, 2018, while Patterson was still
being held in pretrial detention at the Webster County
Jail, Sheriff Mitchell authorized Patterson to enjoy an
unsupervised weekend jail pass. Sheriff Mitchell released
Patterson even though he knew that Patterson had
recently caused bodily injury to a police officer and, as
such, that Patterson posed a threat to the health and
safety of innocent citizens.
23. During this unsupervised weekend pass, Patterson
returned to Mrs. Robinson. For all the reasons listed
above, Mrs. Robinson felt that she had no choice but to
tough it out for a few days.
24. That night, at or about 8:52 p.m., the wholly
unsupervised and highly intoxicated Patterson became
involved in a public altercation with Mrs. Robinson at a
pool hall in Eupora, Mississippi.
This altercation
culminated with Patterson hitting Mrs. Robinson in the
face and attempting to run over her with a car while she
fled on foot. Mrs. Robinson suffered physical pain and
psychological harm as a result of Mr. Patterson’s
reprehensible behavior.
Figure 6 – Exhibit G to Exhibit 1
(Incident Report)
The crowd in the parklot on Dunlap were
yelling Darren Patterson tried to run over
Felica Robinson with her vehicle. I had
Officer Brandon Chaille run the tag on that
white Impala through Webster 911. The
tag came back to Felica Robinson. I asked
several people that was in the crowd which

47a
were yelling, did they see who was driving
the car. One of the person respond, “I
didn’t see who was driving but someone told
me that Mr. Patterson was driving. He
tried to run over Felica Robinson. Mrs.
Robinson and Mr. Patterson ran through
the parking lot of the Mason Hall.” Officer
Chaille tried to locate Mr. Patterson and
Mrs. Robinson but was not successful. I
removed the beer and liquor from the
vehicle.
Figure 7 – Exhibit H to Exhibit 1
(Statement of Plaintiff)
[…] up then he took gun down. So I then
turned around for 1 sec. with my back
turned I knew he was gonna try & run me
over so then I hear my car zooming my way
he was in it coming I stepped in front of a
truck then boom he tried to run me over and
hit a mailbox. I Felicia Robinson backed up
all way to my Church him & his dad walking
trying to get me till I saw a car a at Liberty
Church I flagged it down & jumped in it.
I have read this statement consisting of
____ page(s), each page of which bears my
signature, and I do affirm that all facts and
statements contained herein are true and
correct.
/s/Felicia Robinson
Signature of person making
voluntary statement

48a
25. Patterson was subsequently charged with leaving
the scene of an accident by the Eupora Police Department
on September 4, 2018. Sheriff Mitchell was notified about
this incident.
Figure 8 – Exhibit I to Exhibit 1
(Criminal Affidavit)
IN THE NAME AND BY THE
AUTHORITY OF THIS
MUNICIPALITY:
I, Sgt. Lawrence Caradine, being duly
sworn, make this affidavit that Darren
Patterson, the DEFENDANT, on or about
the 1st day of September, 2018, and within
the jurisdiction of this Municipality, did
willfully and unlawfully while driving a 2003
Chevrolet Impala, hit a mailbox Dunlap
Street, the property of Marcquell
Patterson, and ran away from the vehicle at
the scene of the accident, against the peace
and dignity of the City of Europa,
Mississippi.
Charge: Leaving the Scene of an Accident
[63-3-403]
/s/
AFFIANT
AFFIANT Sworn to and subscribed
before me this 4th day of September, 2018.
October 2018 (Interregnum)

49a
26. On October 11, 2018, Sheriff Mitchell gave
Patterson a second unsupervised jail furlough. However,
this pass was for only one night. The time-constrained
Patterson did not assault Mrs. Robinson during this
furlough.
November 2018 (Abusive Incident #2)
27. On Friday, November 2, 2018, Sheriff Mitchell
gave Patterson a third unsupervised jail furlough for a
weekend celebration. As such, the Sheriff gave Patterson
a full weekend pass just as he had done in September.
Sheriff Mitchell placed no apparent restriction on
Patterson’s conduct other than to require him to return to
jail on the morning of Sunday, November 4, 2018. This
gave Patterson a full day on Saturday to sleep off any
Friday night debauchery. Sheriff Mitchell did this despite
knowing full well of Patterson’s predisposition toward
violence.
28 Sheriff Mitchell knew or should have known that
Patterson would drink excessively and behave wantonly
during his weekend celebration without the hassle of
having to return to jail the next morning. Sheriff Mitchell
also knew or should have known that Patterson would
spend his weekend of unbridled revelry with his wife – the
very woman whom the previously intoxicated Patterson
had tried to kill only two months before. Nevertheless,
Sheriff Mitchell, acting with reckless disregard for the
health and safety of Mrs. Robinson, gave Patterson an
unsupervised weekend furlough.
29. During this unsupervised weekend pass, Patterson
returned to Mrs. Robinson, who felt even more helpless
than before. After all, the County and WCSD law
enforcement officers who had possessed actual knowledge

50a
of Patterson’s propensity for violence toward her were the
very ones who had just set Patterson free. She felt
trapped.
30. On November 2-3, 2018, while on this unsupervised
weekend pass, Patterson engaged in a pattern of malicious
and sadistic abuse toward Mrs. Robinson.
31. At approximately 1:00 pm on November 2, 2018,
while they were visiting a pool hall in Eupora, Mississippi,
Patterson threw a beer can at Mrs. Robinson and punched
her in the face. Later that day, after they had returned to
Mrs. Robinson’s home, Patterson threatened to burn
down her house. Patterson then screamed at her saying,
“I hate you, you [expletive] [expletive].” Throughout the
evening, Patterson was verbally and physically abusive.
He even busted a hole in a wall of Mrs. Robinson’s home.
32. At 9:23 p.m. that night, shortly after the enraged
Patterson had busted a hole in the wall of her house, Mrs.
Robinson frantically called Townsend, a WCSD
dispatcher, for help.
Mrs. Robinson already had
Townsend’s cell phone number because they are related.
Knowing that Townsend would be at work, Mrs. Robinson
felt confident that Townsend would send a deputy to
retrieve the out-of-control Patterson. However, instead of
sending a deputy to Mrs. Robinson’s home to collect the
County’s violent inmate, Townsend gave the phone to
another inmate/trusty who spoke to Patterson. The two
trusties talked for approximately seven minutes.

51a
Figure 9 – Exhibit J to Exhibit 1
(Phone Call to Santana Townsend)

33. Aside from Townsend handing the phone to
another trusty, none of the Official Defendants4 made any
attempt whatsoever to assist Mrs. Robinson, even though
Patterson was an inmate in their legal and physical
custody who should have been retrieved immediately. In
fact, after the inmates had finished talking, Townsend
failed to keep Mrs. Robinson on the phone. She also failed
to dispatch a deputy to aid Mrs. Robinson.
34. After the phone call ended, Patterson became even
more enraged. For the next three hours, Patterson’s
anger grew more intense and insatiable.
35. At approximately 12:30 a.m. on November 3, 2018,
Patterson threw Mrs. Robinson on the bathroom floor of
her home and punched her repeatedly until she blacked
out. Then, Patterson poured “Liquid Fire” drain cleaner,
containing sulfuric acid (i.e., the primary component of
battery acid), over Mrs. Robinson’s nearly naked body,
The Official Defendants comprise the County, the WCSD, and
any Defendant (known or unknown) who was a county employee at
the times specified herein.
4

52a
causing severe corrosive burns to her face, neck, chest,
arms, and legs.
Figure 10 – Exhibit K to Exhibit 1
(MSDS for Liquid Fire)
Composition/Information on Ingredients
Ingred Name:SULFURIC ACID (SARA 302/313)
(CERCLA). BP: 535F,279C. SPEC GRAV:
1.835.
36. After being burned alive, the nearly naked Mrs.
Robinson, escaped to the adjacent home of Mr. Johnny
Lucas. Patterson chased after her. After she arrived at
Mr. Lucas’s house, Patterson grabbed Mrs. Robinson by
her hair, forced her to return to her house, and tried to
throw her into the shower — all while refusing to take her
to the hospital. Mrs. Robinson attempted to leave, but
Patterson resisted her efforts. However, Mrs. Robinson
grabbed her keys and found a way to escape to her car.
Before she could drive away, Patterson forcibly jumped
into the car and insisted on going with her to the local
hospital. Obviously, he wanted to intimidate Mrs.
Robinson from detailing to hospital staff what had just
transpired.
37. The parties arrived at the North Mississippi
Medical Center-Eupora/Webster County Hospital
(“NMMC/WCH”) at approximately 1:16 a.m. Because the
traumatized Mrs. Robinson was being shadowed by her
abusive husband, she diffidently stated to the hospital
staff that she was “cleaning and slipped and fell in a
chemical called ‘liquid fire.’” However, the sheer extent of
Mrs. Robinson’s burns demonstrate that these injuries
resulted from far more than a mere slip-and-fall. In fact,
her neck damage was so severe, that emergency room

53a
staff had to intubate her.
Figure 11 – Exhibit L to Exhibit 1
(Emergency Room Chart)
Triage Quick, ED

Authored Date: 11/3/2018
1:16:00 AM
Authored By: Weeks,
Thelma

Triage Documentation:
Arrival Information:
Chemical burns to face, torso,
• Reason for Visit
and extremities. Reports that
she was cleaning and slipped
and fell in chemical called
“liquid fire.” States “like
Drano” within 10 min of arrival
to ER
English
• Language
Spoken/Understood
patient
• History Source
home
• Arrived From
private automobile
• Mode of Arrival
ambulatory
• Means of Arrival
ambulatory
• Transport
Method
spouse
• Accompanied By
Results
Interpretation:
• Interpretation of No laboratory abnormalities of
acute significance
Lab Tests
ET Tube in good position
• Radiology
Results
Interpretation

54a
• Radiology
Results Interpreted
by
• Clinical Course

Radiologist
Poison control called and
stated the liquid fire was
similar in nature to Drano but
stronger. States to rinse the
body with copious amounts of
water to flush the chemical off
the body and then to apply wet
to dry dressings. Patient
remained hysterical,
uncooperative due to pain.
Due to the pain along with the
burns to the throat/neck and
mouth and concern that airway
may be compromised,
performed RSI and intubated
the patient. Patient intubated
successfully after one attempt.
Called the JMS Burn Center at
Central MS Medical Center in
Jackson, MS and discussed
with Beretta, PA who accepted
the patient for Dr.
Lineaweazer. Requested for
EMS to obtain a helicopter for
the patient and UMMC Flight
crew in route. Patient
remained stable while awaiting
for transfer.

38. Later that morning, Officer David Fonseca of the
Eupora Police Department witnessed Patterson at the

55a
hospital. Officer Fonseca wondered why a “state inmate”
would be there. Upon seeing Deputy Tanner Pritchard of
the WCSD at the hospital, Officer Fonseca asked the
deputy if he was there to pick up Patterson. Deputy
Pritchard replied that he had no idea that Patterson was
there. Officer Fonseca relayed this information to his
superior, Corporal Bradley Frost.
39. Coincidentally, while Corporal Frost was on patrol
that morning, he was flagged down by Vanessa Watson, a
family member of Mrs. Robinson, who alerted him that
Patterson had poured chemicals on Mrs. Robinson.
Corporal Frost accompanied Ms. Watson to Mrs.
Robinson’s home and observed the burn spots on the
bathroom floor, recording the same on his body cam.
Later that day, Ms. Watson called Corporal Frost wanting
to press charges; however, she never came to the station
to sign the paperwork. Nevertheless, Corporal Frost did
open an investigation into this aggravated assault.
Figure 12 – Exhibit M to Exhibit 1
(Offense Report)
On Saturday, November 3, 2018 during
morning briefing Officer David Fonseca
told me he saw Daren Patterson at the
Webster County Hospital while doing a
walk through. Officer Fonseca told me he
recognized Daren as a state inmate and was
wondering why he was at the Hospital.
Officer Fonseca told me he saw Deputy
Tanner Pritchard at the hospital and asked
him if he was there to pick up Daren (aka
Pap).
Officer Fonseca said Deputy
Pritchard said he did not know Daren was
up there and that he was not there to get

56a
him. Officer Fonseca said that Daren had
burns on his hands and that his girlfriend
Felicia Robinson had got burned really
badly as well.
***
While on patrol, I Corporal Bradley
Frost was flagged down by Felicia
Robinson’s family member Vanessa
Watson who asked me to do a stand by for
her at Felicia’s house to look for some
medicine and stated that she was scared
Daren was over there. Vanessa stated that
she thought Daren poured some chemicals
on Felicia Robinson and she was air lifted to
the burn center in Jackson. While at
Felicia’s house I noticed burn spots in the
bathroom which is where Vanessa stated it
happened.
Vanessa called the Police
Department later in the day after the stand
by and stated she wanted an investigation
started on Daren Patterson because he is
trying to kill Felicia and something needs to
be done.
I told Vanessa I would be happy to do a
report and that I needed someone who was
there to come to the Police Department and
give a statement and I would get it started.
No one showed up. I have bodycam footage
of the standby call to Felicia’s house.
40. After being stabilized by emergency room staff,
Mrs. Robinson was airlifted that morning to the Merit
Health Central burn treatment center in Brandon,
Mississippi. There, Mrs. Robinson endured multiple

57a
painful skin grafts over several weeks of hospitalization.
She was discharged from the burn center on November
27, 2018. However, she has continued to receive burn
grafts.
41. According to her November 27, 2018, medical
report, Mrs. Robinson suffered no less than sixteen (16)
second- and third-degree burns to her face, neck, chest,
bilateral upper extremities, and bilateral lower
extremities.
Figure 13 – Exhibit N to Exhibit 1
(Wound Assessment)
1. Rt face measures 14cmX13.2cm,
pink with some necrotic tissue
present, small amount of yellow
drainage present.
2. Left side of face measures
2.5cmX3.4cm, pink, no drainage.
3. Neck measurements
12cmX13cmpink with necrotic
tissue, yellow drainage.
4. Chest measurements 21cmX21cm ,
pink with some necrotic tissue,
multiple graft sites, no drainage.
5. Right shoulder measurements
12cmX5cm pink graft site.
6. LUA non removable dressing.
7. LFA measures 24cmX6cm multiple
scabbed areas.
8. RFA measures 14cmX7cm graft
site, pink with eschar.
9. RUA measures 11.1cmX3cm area
with 2 wounds scabbed.
10. Right hand measures 4.5cmX5cm

58a
scabbed.
11. Right side abdomen measures
6cmX0.5cm scabbed
12. Right upper back measures
21cmX19cm pink graft doner sites
13. lower back measures 9.5cmX10 cm
area with 3 scabbed wounds
14. Left posterior flank measures
1.8cmX3cm scabbed.
15. Left leg measures 76.5X26cm area
with multiple burn wounds and two
donor sites to lateral thigh, donor
sites are pink, burn wounds are pink
and scabbed.
16. Right leg measures 68cmX25cm
area with multiple burn wounds that
are pink/scabbed, 3 donor sites to
lateral thigh and a grant below the
anterior knee that has some eschar.
42. Mrs. Robinson has suffered other damages. She
has suffered permanent disfigurement. She endured
painful neck surgery on January 7, 2019, to repair trauma
resulting from the altercation. In May 2019, she had
surgery to repair her mouth. As of today, she has had at
least nine (9) surgeries and/or skin grafts. Moreover, she
has received speech therapy, occupational therapy, and
physical therapy due to the sadistic abuse she suffered on
November 2-3, 2018. To date, her health care providers
have performed services valued at more than
$878,000.00.5 This figure is still climbing.
See Exhibit “3” –Redacted CMS conditional payment letter,
incorporated herein by reference and made a part hereto. Mrs.
Robinson received this letter from CMS several weeks after she had
5

59a
Figure 14 – Exhibit O to Exhibit 1
(CMS Conditional Payment Letter)
Sum of Total Charges
Total Reimbursed Amount
Total Conditional Payments

$878,956.61
$134,837.22
$133,588.38

43. In addition to experiencing severe burns and
permanent disfigurement, Mrs. Robinson has incurred
excruciating pain and psychological impairments as a
result of this trauma. Having a prior history with
depression and anxiety, the severe trauma has
exacerbated her already fragile mental state. She
receives counseling at Community Counseling Services in
Eupora, Mississippi. She also incurred property damage
as a result of Patterson’s violent behavior (i.e., damage to
her house).
44. On May 21, 2019, Patterson was indicted for
aggravated assault and kidnapping by the Grand Jury of
Webster County.6
Figure 15 – Exhibit 4
(Indictment of Daren Patterson – 2019)
COUNT I:

DAREN
PATTERSON
a/k/a “PAP”
On or about November 2, 2018, in Webster
County, Mississippi, and within the
jurisdiction of this Court, did willfully,
unlawfully, feloniously and purposely or
served her Notice of Claim upon the Defendants.
6
See Exhibit “4” – Indictment of Daren Patterson, incorporated
herein by reference and made a part hereto.

60a
knowingly cause serious bodily injury to
Felicia Robinson or did recklessly cause
serious bodily injury under circumstances
manifesting extreme indifference to the
value of human life, in violation of
Mississippi Code Section 97-3-7(2)(a)(i), as
amended, constituting a common plan or
scheme or related series of acts or
transactions, and against the peace and
dignity of the State of Mississippi, and that;
COUNT II: DAREN
PATTERSON
a/k/a “PAP”
On or about November 2, 2018, in Webster
County, Mississippi, and within the
jurisdiction of this Court, did willfully,
unlawfully, feloniously and without lawful
authority and with or without intent to
secretly confine, forcibly seize and confine,
or inveigle or kidnap Felicia Robinson, a
human being, with the intent to cause the
said Felicia Robinson to be confined or
imprisoned against her will, in violation of
Section 97-3-53 of the Mississippi Code of
1972, as amended, constituting a common
plan or scheme or related series of acts or
transactions, and against the peace and
dignity of the State of Mississippi.
45. In summary, the Official Defendants had actual
notice that Patterson had assaulted Officer Henderson
and that he had tried to kill Mrs. Robinson. As such, the
Official Defendants knew that Patterson was a specific

61a
and credible threat to the health and safety of the general
public and, after September 1, 2018, to the health and
safety of Mrs. Robinson in particular. Nevertheless, the
Official Defendants recklessly disregarded these risks by
allowing their inmate, Patterson, to roam free on multiple
occasions.
46. Moreover, the Official Defendants, being fully
cognizant of the risks to Mrs. Robinson in particular,
acted with reckless disregard for her health and safety
and with deliberate indifference to her constitutional
rights when they allowed their inmate, Patterson, to roam
free for a second weekend furlough on November 2, 2018.
Even worse, after Mrs. Robinson had called the Official
Defendants for help that night while Patterson was in the
very act of terrorizing her, they did not even bother to
retrieve their inmate. Instead, with reckless disregard for
her health and safety and with deliberate indifference to
her constitutional rights, the Official Defendants allowed
Mrs. Robinson’s life to remain in peril. These acts and
omissions shock the conscience.
47. As a result, Mrs. Robinson has incurred severe,
permanent, and extensive scarring over most of her body,
as well as other severe physical and psychological
impediments, the full extent of which may never fully be
realized. She also has had her constitutional rights
violated by persons acting under color of law.
MISSISSIPPI COMMON LAW CAUSES OF ACTION
Counts I. & II.
Assault and Battery (as to Patterson only)
48. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.

62a
49. “An assault occurs where a person (1) acts
intending to cause a harmful or offensive contact with the
person of the other or a third person, or an imminent
apprehension of such a contact, and (2) the other is
thereby put in such imminent apprehension. A battery
goes one step beyond an assault in that a harmful contact
actually occurs.” Whitten v. Cox, 799 So.2d 1 (Miss., 2000)
(citations omitted).
50. In September 2018, Patterson battered Mrs.
Robinson and then chased her with an automobile (i.e.,
Count I). In November 2018, Patterson beat Mrs.
Robinson and then poured sulfuric acid on her virtually
naked body (i.e., Count II).
51. The malicious acts of Patterson as described herein
intended to cause a harmful or offensive contact with Mrs.
Robinson, who in turn was placed in such imminent
apprehension thereby. Moreover, Patterson caused this
harmful contact to occur on these two occasions, as
described herein.
52. As a direct and proximate result of Patterson’s
assaults and batteries of Mrs. Robinson, as described
herein, Mrs. Robinson has suffered immense and
permanent physical and emotional damage.
Count III.
False Imprisonment (as to Patterson only)
53. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
54. The elements of a false imprisonment claim are “(1)
detention of the plaintiff and (2) unlawfulness of that
detention.” Richard v. Supervalu Inc., 974 So. 2d 944, 949
(Miss. App., 2008).

63a
55. Patterson detained Mrs. Robinson unlawfully on
November 2-3, 2018, when he performed the acts
described herein.
56. As a direct and proximate result of this false
imprisonment, Mrs. Robinson suffered immense and
permanent physical and psychological damage.
Counts IV. & V.
Intentional Infliction of Emotional Distress (as to
Patterson only)
57. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
58. Patterson inflicted severe emotional distress on
Mrs. Robinson in September 2018 when he ran after her
with a vehicle (i.e., Count IV) and when he falsely
imprisoned, beat, and subsequently burned her in
November 2018 (i.e., Count V).
59. Patterson’s acts as described herein were without
justification or reason. These acts evoked outrage or
revulsion in a civilized society, shocking the conscience.
These acts were directed at or intended to cause harm to
Mrs. Robinson, who, in turn, suffered emotional distress
that was foreseeable as a result of this intentional act. Cf.
Pierce v. Cook, 992 So.2d 612 (Miss., 2008).
60. As a direct and proximate result of this intentional
infliction of emotional distress, Mrs. Robinson suffered
immense psychological damage.
Counts VI. & VII.
Failure to Supervise Inmate (MTCA)
(as to the County, WCSD, and Sheriff Mitchell and
Townsend in their representative capacities)
61. The preceding paragraphs are incorporated herein

64a
by reference as if fully copied in words and figures.
62. Mrs. Robinson was engaged in no criminal
behavior at any material time.
63. At all material times, Sheriff Mitchell and
Townsend were acting in the course and scope of their
duties. Therefore, respondeat superior applies to this
count, making the County and WCSD liable for their
negligent acts or omissions.
64. At all material times, Patterson was a ward of the
County due to his detention at the Webster County Jail.
65. Like parents do with their wards (i.e., their
children), the County and the WCSD have the duty to
supervise their wards (i.e., their inmates). The County
and the WCSD’s duty to supervise inmates is ministerial
and non-discretionary.
66. At all material times, the Official Defendants knew
of Patterson’s propensity to harm Mrs. Robinson and
others. However, with reckless disregard for the safety
and health of Mrs. Robinson and the other, the Official
Defendants failed to act as reasonably prudent
custodians/jailers by:
Count VI – Permitting Patterson to have
an unsupervised weekend jail furlough in
September 2018 even though they knew he
had caused bodily injury to Officer
Henderson in May 2018, only three months
earlier; and by
Count VII – (a) Permitting Patterson to
have an unsupervised weekend jail furlough
in November 2018 even though they knew
that Patterson had caused bodily injury to

65a
Officer Henderson in May 2018 and that he
had tried to kill Mrs. Robinson in
September 2018 during his prior weekend
jail furlough; and by (b) permitting
Patterson to remain on unsupervised jail
furlough in November 2018 even though
Mrs. Robinson had called Townsend for
help while Townsend was on duty as a
WCSD dispatcher;
Cf. Stephens v. Miller, 970 So.2d 225, 227 (Miss. App.,
2007).
67. As a direct and proximate result of the Official
Defendants’ failure to supervise Patterson, as described
herein, Mrs. Robinson suffered incalculable damage to
her physical body and to her psychological and emotional
wellbeing. She also suffered property damage to her
house.
Count VIII.
Gross Negligence (MTCA)
(as to the County, the WCSD, and Townsend in her
representative capacity)
68. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
69. On November 2-3, 2018, Townsend was at work at
the Webster County Jail. Because she was at work within
the time and place of her employment, she is presumed to
have acted in the course and scope of her employment.
See Miss. Code Ann. § 11-46-5 (3) (“For the purposes of
this chapter and not otherwise, it shall be a rebuttable
presumption that any act or omission of an employee
within the time and at the place of his employment is
within the course and scope of his employment.)

66a
Therefore, respondeat superior applies to this count.
70. Townsend had a non-discretionary, ministerial
duty to comply with the requirements set forth by the
Mississippi Board of Emergency Telecommunicators
Standards and Training and/or other standards
established for emergency telecommunicators such as
she. Specifically, Townsend had a duty to remain on the
phone with Mrs. Robinson and/or to dispatch law
enforcement officers to Mrs. Robinson’s residence. She
did neither, thereby breaching her duties. Townsend
acted with reckless disregard for the health and safety of
Mrs. Robinson when she handed the phone to an inmate
instead of staying on the line or dispatching a deputy to
Mrs. Robinson’s house.
71. As the direct and proximate result of Townsend’s
gross and reckless breach of her duties as an emergency
telecommunicator, which is imputed to the County and
the WCSD by virtue of the MTCA, Patterson was
permitted to wreak havoc upon the person and property
of Mrs. Robinson, thereby causing her to suffer
incalculable damage to her physical body and to her
psychological and emotional wellbeing.
Counts IX. & X.
Negligent Infliction of Emotional Distress (MTCA)
(as to Webster County, the WCSD, and Sheriff Mitchell
and Townsend in their representative capacities)
72. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
73. The Official Defendants were grossly negligent by
failing to supervise Patterson on September 1, 2018 and
on November 2-3, 2018, and by ignoring Mrs. Robinson’s
call for help on November 2, 2018.

67a
74. The Official Defendants’ grossly negligent conduct
was a substantial factor in causing Mrs. Robinson’s
emotional distress on both these occasions.
75. It was foreseeable that the Official Defendants’
conduct would cause Mrs. Robinson emotional distress on
both these occasions.
76. The Official Defendants behaved recklessly in
September 2018 when they released Patterson after he
had been incarcerated for causing bodily harm to a police
officer. The Official Defendants behaved even more
recklessly in November 2018 when they released
Patterson after he had tried to kill Mrs. Robinson.
77. Mrs. Robinson suffered physical injury and mental
anxiety due to being hit in the face and being chased with
a car by Patterson on September 1, 2018 (i.e., Count IX).
She suffered physical injury and mental stress due to
being severely abused and burned by Patterson on
November 2-3, 2018 (i.e., Count X).
78. Mrs. Robinson has demonstrated a physical
manifestation of injury or demonstrable harm, whether it
be physical or mental, that was reasonably foreseeable to
the Official Defendants. Cf. American Bankers’ Ins. Co.
of Florida v. Wells, 819 So.2d 1196, 1208 (Miss., 2001).
Furthermore, she has demonstrated that the Official
Defendants’ behavior was wanton, grossly careless,
indifferent, or reckless. Cf. id. Therefore, the Official
Defendants negligently inflicted emotional distress upon
her. Cf. id.
79. As a direct and proximate result of the Official
Defendants’ negligent infliction of emotional distress,
Mrs. Robinson has suffered incalculable damage to her
psychological and emotional wellbeing.

68a
FEDERAL LAW CAUSES OF ACTION
Additional Background Information Re: Custom or
Usage
80. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
81. Pursuant to § 1983, the County and WCSD are
responsible for any unconstitutional action that
implemented or executed a policy statement, ordinance,
regulation, or decision officially adopted and promulgated
by WCSD’s officers. See Monell v. New York City Dept.
of Social Servs., 436 U.S. 658, 690 (1978). Likewise, the
County is responsible for any unconstitutional action that
implemented or executed a custom or usage of the County
even though said custom or usage may not have received
formal approval by the County’s official decision-making
channels. See id. at 691.
82. “Municipal liability under 42 U.S.C. § 1983
requires proof of 1) a policymaker; 2) an official policy;
3) and a violation of constitutional rights whose moving
force is the policy or custom.” Rayborn v. Bossier Parish
Sch. Bd., 881 F.3d 409, 416-17 (5th Cir., 2018) (internal
citations and quotation marks omitted).
“[T]he
unconstitutional conduct must be directly attributable to
the municipality through some sort of official action or
imprimatur; isolated unconstitutional actions by
municipal employees will almost never trigger liability.”
Rivera v. Houston Indep. Sch. Dist., 349 F.3d 244, 247 (5th
Cir., 2003) (internal citations and quotations omitted).
83. At all material times, Sheriff Mitchell acted under
color of law as the “final policymaker[] with respect to all
law enforcement decisions” within the County. See
Brooks v. George Cnty., 84 F.3d 157, 165 (5th Cir., 1996).

69a
Thus, Sheriff Mitchell had the authority to adopt,
promulgate, and ratify policy statements, ordinances,
regulations, decisions, customs, or usages for
implementation by WCSD employees and inmates.
Likewise, Townsend and Patterson acted under color of
law whenever they followed the policy statements,
ordinances, regulations, decisions, customs, or usages that
were adopted, promulgated, or ratified by Sheriff
Mitchell.
84. On January 14, 2019, the Webster County Grand
Jury issued multiple indictments against Sheriff Mitchell
and Townsend for official corruption. Sheriff Mitchell
pleaded guilty to some of these charges on June 12, 2019,
prompting his immediate resignation. Although the
criminal acts specified in the Mitchell/Townsend
indictments may have no direct bearing upon Mrs.
Robinson’s damages, these crimes nevertheless point to
an utter lack of institutional control at the WCSD during
Sheriff Mitchell’s tenure.
85. Sheriff Mitchell adopted, promulgated, or ratified
one or more policy statements, ordinances, regulations,
decisions, customs, or usages that gave Patterson
multiple, unsupervised jail furloughs even though Sheriff
Mitchell knew that Patterson was a threat to the public in
general and, after September 1, 2018, to Mrs. Robinson in
particular.
These policy statements, ordinances,
regulations, decisions, customs, or usages flowed from the
lack of institutional control at the WCSD as evidenced by
the Mitchell/Townsend indictments. Moreover, these
policy statements, ordinances, regulations, decisions,
customs, or usages were the moving forces behind the
constitutional violations referenced herein.
86. As such, the unconstitutional conduct referenced

70a
herein bears the imprimatur of Sheriff Mitchell’s official
approval or acquiescence. Therefore, such conduct is not
“isolated” for the purposes of imputing municipal liability.
Cf. Rivera, 349 F.3d at 247. Accordingly, the County is
liable to Mrs. Robinson for these constitutional violations
pursuant to Monell. Cf. id.
Counts XI. & XII.
Violations of Fourth, Eighth, and Fourteenth
Amendments (§ 1983)
(as to Patterson only)
87. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
88. Pursuant to the aforesaid policy statements,
ordinances, regulations, decisions, customs, or usages that
gave Patterson multiple, unsupervised jail furloughs, the
Official Defendants provided “significant encouragement,
either overt or covert” to Patterson by (1) releasing him
from jail without bond on weekend passes and by
(2) failing to retrieve him after Mrs. Robinson had called
the Official Defendants for help. Cf. Brentwood Acad. v.
Tenn. Secondary Sch. Athletic Assn., 531 U.S. 288, 296
(2001). Likewise, Patterson operated as a “willful
participant in joint activity with the State or its agents”
(1) when he left the Webster County Jail with the express
permission of Sheriff Mitchell, who had actual knowledge
of his penchant for harming Mrs. Robinson and (2) by
virtue of him serving as a trusty, which made him a quasiemployee of the County. Cf. id. Moreover, as an
inmate/trusty who was in the legal and physical custody of
the County, Patterson was at all material times
“controlled by an agency of the State.”
Cf. id.
Furthermore, Townsend’s decision to seek assistance
from another inmate or trusty after Mrs. Robinson had

71a
called for help—instead of staying on the phone with Mrs.
Robinson and dispatching a deputy to her house—further
indicates how inmates or trusties such as Patterson were
entwined with the execution of governmental policy. Cf.
id.
89. As the result of this pervasive entwinement
between inmates or trusties such as Patterson and the
Official Defendants who supervised them, Patterson was
a “state actor” for § 1983 purposes. Cf. id.
90. As a state actor, Patterson operated under color of
law when he abused, terrorized, attempted to kill, and
permanently disfigured Mrs. Robinson on September 1,
2018, (i.e., Count XI) and November 2-3, 2018 (i.e., Count
XII). Cf. id. at 295 at n.2. (“If a defendant's conduct
satisfies the state-action requirement of the Fourteenth
Amendment, the conduct also constitutes action ‘under
color of state law’ for § 1983 purposes.”) In the process,
Patterson violated the following constitutional rights of
Mrs. Robinson:
a. Fourth Amendment. Pursuant to the Fourth
Amendment, which is incorporated to the
States via the Fourteenth Amendment, “[t]he
right of the people to be secure in their persons,
houses,
papers,
and
effects,
against
unreasonable searches and seizures, shall not
be violated.” Therefore, as a state actor,
Patterson had the duty to refrain from
(1) seizing (or attempting to seize) Mrs.
Robinson’s person, (2) prohibiting her from
leaving her own home, and (3) abusing her.
b. Eighth Amendment. Pursuant to the Eighth
Amendment, which is also incorporated to the

72a
States via the Fourteenth Amendment,
“[e]xcessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.” Therefore, as a state
actor, Patterson had the duty to refrain from
beating Mrs. Robinson senseless and dousing
her nearly naked body with sulfuric acid.
c. Fourteenth Amendment. The Due Process
Clause of the Fourteenth Amendment provides
that “[n]o State shall . . . deprive any person of
life, liberty, or property, without due process of
law.” As such, Mrs. Robinson had a substantive
due process right to be free from stateoccasioned bodily harm. Therefore, as a state
actor, Patterson had the duty to refrain from
causing (or attempting to cause) bodily harm to
Mrs. Robinson or restraining (or attempting to
restrain) her liberty without due process of law.
91. Notwithstanding these constitutional duties,
Patterson violated each of them while acting under color
of law. Accordingly, he is liable to Mrs. Robinson
pursuant to § 1983.
92. As a direct and proximate result of Patterson’s
violation of Mrs. Robinson’s constitutional rights on
September 1, 2018 (i.e., Count XI), and November 2-3,
2018 (i.e., Count XII), as described herein, Mrs. Robinson
has suffered incalculable damage to her physical body and
psychological and emotional wellbeing. She also incurred
damage to her home and other property, the extent and
amount of which will be adduced at trial.

73a
Counts XIII. & XIV.
Monell Claims for Patterson’s § 1983 Violations
(as to Webster County and the WCSD)
93. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
94. When Sheriff Mitchell released Patterson from jail
on September 1, 2018, for a weekend furlough, even
though Patterson had assaulted Officer Henderson only a
few months earlier, Sheriff Mitchell adopted,
promulgated, or ratified one or more policy statements,
ordinances, regulations, decisions, customs, or usages
(a) giving inmates or trusties exceptionally broad latitude
to do almost as they pleased and/or (b) giving Patterson
multiple jail furloughs. Likewise, by releasing Patterson
from jail on November 2, 2018, for another weekend pass,
even though Patterson had tried to kill Mrs. Robinson
during the previous weekend furlough in September 2018,
Sheriff Mitchell advanced these policy statements,
ordinances, regulations, decisions, customs, or usages
even further.
95. As such, Sheriff Mitchell – i.e., the chief
policymaker for the County, see Brooks, 84 F.3d at 165 –
adopted, promulgated, or ratified one or more policy
statements, ordinances, regulations, decisions, customs,
or usages that effectively gave Patterson carte blanche to
do as he pleased during his weekend furloughs from jail.
96. Pursuant to these policy statements, ordinances,
regulations, decisions, customs, or usages, Townsend
declined to send a deputy to halt Patterson’s furlough on
November 2, 2018, even though she knew that Patterson
was acting violently toward Mrs. Robinson. Instead, while
acting pursuant to these policy statements, ordinances,

74a
regulations, decisions, customs, or usages, which were the
moving forces for her decision, Townsend merely directed
another inmate to talk to Patterson. In turn, she ratified
Patterson’s violent behavior, giving him the tacit go-ahead
to continue abusing Mrs. Robinson.
97. Therefore, the County and the WCSD are liable for
Patterson’s acts pursuant to Monell because the aforesaid
policy statements, ordinances, regulations, decisions,
customs, or usages of allowing Patterson to have multiple
weekend furloughs – and to do as pleased while he was on
these weekend furloughs – were the moving forces behind
Patterson’s sadistic abuse of Mrs. Robinson.
98. Mrs. Robinson has suffered permanent physical
and psychological damage as the direct and proximate
result of these violations of her constitutional rights,
privileges, and immunities pursuant to the Fourth,
Eighth, and Fourteenth Amendments. Therefore, Mrs.
Robinson seeks redress from the County and the WCSD
under § 1983.
Count XV.
Third Party Liability Due to Special Relationship
(§ 1983)7
(as to the Official Defendants)
99. The preceding paragraphs are incorporated herein
by reference as if fully copied in words and figures.
100. If the Court denies the Plaintiff’s Monell claims
referenced above, then Mrs. Robinson pleads in the
alternative that the County, WCSD, and Sheriff Mitchell
Much of the legal argument contained in the next two counts is
taken word-for-word from Keller v. Attala Cnty., Civil Action No.:
1:16-Cv-136-SA-DAS, at *6-7 (N.D. Miss., 2018).
7

75a
and Townsend (in their respective individual capacities)
were in a special relationship with Mrs. Robinson and
therefore had a constitutional obligation to protect her
from their inmate, Patterson.
101. The Due Process Clause of the Fourteenth
Amendment provides that “[n]o State shall . . . deprive any
person of life, liberty, or property, without due process of
law.”
102. While individuals have a substantive due process
right to be free from state-occasioned bodily harm, state
officials do not, as a general matter, have a constitutional
duty of care to protect individuals from injuries caused by
themselves or others. See DeShaney v. Winnebago Cnty.
Dep’t of Soc. Servs., 489 U.S. 189, 196-97 (1989) (“As a
general matter, then, we conclude that a State's failure to
protect an individual against private violence simply does
not constitute a violation of the Due Process Clause.”).
However, the Supreme Court has noted that this
categorical rule is subject to at least one limited exception:
A state may create a “special relationship” with a
particular citizen, requiring the state to protect him from
harm, “when the State takes a person into its custody and
holds him there against his will.” Id. at 199-200. This
“special relationship” arises when a person is
involuntarily confined or otherwise restrained against his
will pursuant to a governmental order or by the
affirmative exercise of state power. Walton v. Alexander,
44 F.3d 1297, 1299 (5th Cir., 1995). The Supreme Court
recognized that this special relationship exists when the
state takes custody of a prisoner, Estelle v. Gamble, 429
U.S. 97, 103-04 (1976), or involuntarily commits someone
to an institution. Youngberg v. Romeo, 457 U.S. 307, 31516 (1982). The Fifth Circuit has extended the exception to

76a
children in foster care, as well. Griffith v. Johnston, 899
F.2d 1427, 1439 (5th Cir., 1990).
103. By releasing Patterson from jail for a weekend
furlough, even though he knew that Patterson had been
violent toward Mrs. Robinson during the previous
weekend furlough, Sheriff Mitchell – via a governmental
order or the affirmative exercise of state power – adopted,
promulgated, or ratified one or more policy statements,
ordinances, regulations, decisions, customs, or usages that
gave Patterson free reign while on his weekend jail
furloughs. Acting pursuant to these policy statements,
ordinances, regulations, decisions, customs, or usages,
Townsend declined to send a deputy to interrupt
Patterson’s weekend furlough even though Mrs. Robinson
was in grave peril. Instead, by way of an affirmative
exercise of state power, Townsend directed another
inmate or trusty to speak to Patterson. Thus, Townsend
doomed Mrs. Robinson to further confinement by
Patterson and to the life-altering abuse that would
continue to befall her.
104. Restated, the Official Defendants, acting in
deference to the interests of their inmate/trusty (i.e.,
Patterson), effectively took Mrs. Robinson’s liberty under
terms that provided no realistic means of escape while
giving her no means of providing for her own care or
safety. Even when she got in the car to race to the hospital
after being burned, Mrs. Robinson was involuntarily
escorted by Patterson who spied on her in the hospital.
This occurred due to the Official Defendants’ deliberate
indifference and/or outrageous conduct. Therefore, Mrs.
Robinson was, at all material times, in a special
relationship with the Official Defendants, obligating them
to protect her. Despite this, the Official Defendants failed

77a
to protect Mrs. Robinson—even when they were put on
direct notice of Patterson’s violent behavior while the
same was being directed to her specifically.
105. Mrs. Robinson has suffered permanent physical
and psychological damage as the direct and proximate
result of these violations of her constitutional rights,
privileges, and immunities pursuant to the Fourth,
Eighth, and Fourteenth Amendment. Likewise, she also
suffered property damage. Therefore, Mrs. Robinson
seeks redress under § 1983 for the violations of her
constitutional rights, privileges, and immunities by the
Official Defendants while they acted under color of law.
Count XVI.
Third Party Liability Due to State Created Danger (§
1983)8
(as to the Official Defendants)
106. The preceding paragraphs are incorporated
herein by reference as if fully copied in words and figures.
107. Likewise, if the Court denies the Plaintiff’s Monell
claims referenced above, then Mrs. Robinson also pleads
in the alternative that the County, WCSD, and Sheriff
Mitchell and Townsend (in their respective individual
capacities) created the danger that she faced.
108. Courts of Appeals from various circuits have
extended the special relationship exception to situations
Plaintiff acknowledges that this cause of action is not currently
recognized by the Court of Appeals for the Fifth Circuit. However,
Plaintiff believes this fact pattern should be persuasive enough for the
Court of Appeals to adopt this cause of action. Therefore, pursuant
to Rule 11 of the Federal Rules of Civil Procedure, the undersigned
counsel is presenting this legal theory in good faith, believing that this
is a nonfrivolous argument for creating new law.
8

78a
where the state created the danger. Although the Fifth
Circuit has not adopted this theory, it has stated on
numerous occasions the elements that such a cause of
action would require if it were to recognize such a theory,
to-wit: A plaintiff must show [1] the defendants used their
authority to create a dangerous environment for the
plaintiff and [2] that the defendants acted with deliberate
indifference to the plight of the plaintiff.” See Doe v.
Covington Cnty. Sch. Dist., 675 F.3d 849, 865 (5th Cir.,
2012) (en banc). The Covington Court further states:
To establish deliberate indifference for
purposes of state-created danger, the
plaintiff must show that “[t]he environment
created by the state actors must be
dangerous; they must know it is dangerous;
and ... they must have used their authority
to create an opportunity that would not
otherwise have existed for the third party's
crime to occur.” Piotrowski v. City of
Houston, 237 F.3d 567, 585 (5th Cir., 2001)
(citation and internal quotation marks
omitted); see also [McClendon v. City of
Columbia, 305 F.3d 314, 326 n. 8 (5th Cir.,
2002)] (“To act with deliberate indifference,
a state actor must know of and disregard an
excessive risk to the victim's health or
safety.”) (internal quotation marks and
alterations omitted). Critically, this court
has explained that the “state-created
danger theory is inapposite without a
known victim.” [Rios v. City of Del Rio, 444
F.3d 417, 424 (5th Cir., 2006)] (citation and
internal quotation marks omitted); see also

79a
Lester v. City of Coll. Station, 103
Fed.Appx. 814, 815–16 (5th Cir., 2004)
(“[E]ven if it is assumed that the statecreated-danger theory applies, liability
exists only if the state actor is aware of an
immediate danger facing a known
victim.”) (citing Saenz v. Heldenfels Bros.,
Inc., 183 F.3d 389, 392 (5th Cir., 1999))
(emphasis added).
Id.
109. Sheriff Mitchell had possessed actual knowledge
that Patterson was a specific and credible threat to Mrs.
Robinson’s health and safety even before he authorized
Patterson’s release on or about November 2, 2018. In
addition, Townsend had been telephoned about
Patterson’s violent behavior toward Mrs. Robinson less
than three hours before he poured sulfuric acid over Mrs.
Robinson’s nearly naked body. Thus, Sheriff Mitchell
and/or Townsend were aware of an immediate danger
facing a known victim, i.e., Mrs. Robinson.
110. Both Sheriff Mitchell and Townsend – and by
extension, the County and the WCSD – had actual
knowledge of the excessive risk to Mrs. Robinson’s health
or safety. Nevertheless, they disregarded this risk to
further one or more policy statements, ordinances,
regulations, decisions, customs, or usages that allowed
Patterson to have prodigious latitude while on weekend
furloughs from jail. As such, the Official Defendants used
their authority to create a dangerous environment for the
Plaintiff, and they acted with deliberate indifference to
her plight by turning a deaf ear to her cries for help. See
id.

80a
111. Restated, the Official Defendants recklessly
created and then intentionally perpetuated the danger
that caused Mrs. Robinson’s constitutional violations even
after they had learned that she was in immediate danger.
This shocks the conscience.
112. Mrs. Robinson has suffered permanent physical
and psychological damage as the direct and proximate
result of the Official Defendants’ decisions (a) to release
Patterson from jail on an unsupervised weekend furlough
and (b) to permit him to terrorize and disfigure her, all in
violation of her constitutional rights, privileges, and
immunities pursuant to the Fourth, Eighth, and
Fourteenth Amendments. She has also suffered property
damage. Therefore, Mrs. Robinson seeks redress under
§ 1983 for these violations of her constitutional rights,
privileges, and immunities by the Official Defendants
while they acted under color of law.
Count XVII.
Monell Claim for Failure to Train and/or Supervise
Employees or Inmates
(as to the County, WCSD, and Sheriff Mitchell in its
individual capacity)
113. The preceding paragraphs are incorporated
herein by reference as if fully copied in words and figures.
114. The County, WCSD, and Sheriff Mitchell (in his
individual capacity) failed to provide adequate and
competent training or supervision to Townsend and/or to
the John Doe Defendants referenced herein. Likewise,
the County, WCSD, and Sheriff Mitchell failed to provide
adequate and competent supervision to Patterson.
115. The County, WCSD, and Sheriff Mitchell were
tasked with the non-delegable duty to formulate, oversee,

81a
and implement official policies, procedures, practices, and
customs that were to be carried out by County/WCSD
employees and inmates in accordance with state and
federal law. To that end, the County, WCSD, and Sheriff
Mitchell needed to hire competent employees, train them
to follow these policies, and supervise them accordingly.
Likewise, the County, WCSD, and Sheriff Mitchell
needed to supervise inmates like Patterson.
116. The training, hiring, or supervision procedures of
the County, WCSD, and Sheriff Mitchell – the County’s
chief law enforcement policy maker – were grossly
inadequate. Sheriff Mitchell was deliberately indifferent
in adopting a training, hiring, or supervision policy.
Moreover, the inadequate training, hiring, or supervision
policy directly caused the plaintiff’s injuries, as described
herein. Cf. Benavides v. Cnty. of Wilson, 955 F.2d 968,
972 (5th Cir., 1992).
117. Restated, Sheriff Mitchell failed to train
Townsend as to the proper procedures for assisting a
victim seeking help with a belligerent inmate or trusty
who was out on furlough. Upon information and belief,
Sheriff Mitchell provided no training whatsoever to
Townsend in this regard. Likewise, Sheriff Mitchell failed
to supervise Townsend in the proper handling of calls
from victims who were being terrorized by inmates or
trusties on furlough. Moreover, he also failed to supervise
Patterson. A causal connection exists between this lack of
training or supervision and the violation of Mrs.
Robinson’s rights. In fact, because the need for more or
different training or supervision was so obvious, and the
inadequacy so likely to result in violations of
constitutional rights, this failure to train or supervise
constituted deliberate indifference to Mrs. Robinson’s

82a
constitutional rights. Cf. Peña v. City of Rio Grande City,
879 F.3d 613, 623 (5th Cir., 2018) (citing City of Canton v.
Harris, 489 U.S. 378, 390 at n.10 (1989)); Benavides, 955
F.2d at 972.
118. As a direct and proximate result of the failure of
the County, WCSD, and Sheriff Mitchell to develop,
implement, and otherwise devise a proper policy of
adequate employee training and supervision, the Plaintiff
was deprived of certain constitutional rights, privileges,
and immunities guaranteed by the Fourth, Eighth, and
Fourteenth Amendments to the United States
Constitution.
119. Had such policies been implemented, the
deprivations of civil rights as described herein would not
have occurred because every employee of the aforesaid
Defendants would have been trained in the proper
procedures relating to the constitutional rights of persons
similarly situated to the Plaintiff. They would have been
supervised accordingly. Likewise, Patterson would have
been supervised as well. Therefore, pursuant to § 1983,
the County, WCSD, and Sheriff Mitchell are liable for the
deprivation of the Plaintiff’s civil rights as described
herein, and by extension, for the damages occasioned
thereby due to their failure to provide adequate training
and/or supervision to Townsend, the John Doe
Defendants, and/or Patterson.
Count XVIII.
Miscellaneous Relief
(As Webster County and WCSD only)
120. The preceding paragraphs are incorporated
herein by reference as if fully copied in words and figures.
121. Plaintiff seeks entry of an order that would enjoin

83a
the County and the WCSD from adopting, promulgating,
ratifying, or implementing any policy statement,
ordinance, regulation, decision, custom, or usage that
would permit inmates or pretrial detainees to be released
from jail for weekend passes without direct and
continuous supervision unless a policy approved by this
Court is put into place.
122. In addition, Plaintiff seeks entry of an order that
would require the County and the WCSD to (a) provide
adequate supervision to all employees and inmates to
promote compliance with the Court’s orders, and to
(b) report to the Court on a periodic basis to ensure
compliance.
123. Plaintiff also seeks an order requiring the County
to indemnify Sheriff Mitchell, Townsend, and John Does
1-30 for any and all actions or omissions that occurred
during the course and scope of their employment or while
they acted under color of law in adherence to a policy
statement, ordinance, regulation, decision, custom, or
usage of the County as adopted, promulgated, or ratified
by Sheriff Mitchell.
124. Finally, Plaintiff seeks an order declaring that
each incident of negligence (i.e., September 1, 2018, and
November 2-3, 2018) be treated as a separate occurrence
for the purposes of MTCA damage caps.
DAMAGES
125. The preceding paragraphs are incorporated
herein by reference as if fully copied in words and figures.
126. As a direct and proximate result of the causes of
action so referenced above, Mrs. Robinson has incurred
severe, permanent, and extensive scarring over most of

84a
her body, as well as other severe physical and
psychological damages, the full extent of which may never
fully be realized. Moreover, as a direct and proximate
result of the causes of actions so referenced hitherto, Mrs.
Robinson has had her constitutional rights violated by
persons acting under color of law. Mrs. Robinson has
incurred and/or will continue to incur pecuniary damages
(such as medical charges as well as damages to her
property), and non-pecuniary damages (such as severe
pain and suffering, severe permanent disfigurement,
severe emotional harm, etc.). She also seeks nominal
damages, punitive damages (where applicable),
prejudgment interest, post-judgment interest, court
costs, and attorney’s fees pursuant to § 1988.
PRAYER FOR RELIEF
WHEREFORE, PREMISES CONSIDERED, the
Plaintiff prays for Judgment against all Defendants, both
known and unknown, jointly and severally, for:
1.
Nominal damages in the amount of One ($1)
Dollar, plus
2.
Compensatory damages in an amount
greater than or equal to Thirty Million ($30,000,000.00)
Dollars; plus
3.
Punitive damages against Sheriff Mitchell,
Santana Townsend, Daren Patterson, and John Does 1-30
for claims filed against them in their individual capacities
in amounts to be determined by the Court; plus
4.
Reasonable attorney’s fees pursuant to 42
U.S.C. § 1988; plus
5.
All
interest; plus

prejudgment

and

post-judgment

85a
6.

All costs of this matter.

FURTHERMORE, The Plaintiff prays for:
1.
An order declaring that the incidents of
negligence (i.e., September 1, 2018, and November 2-3,
2018) be treated as separate occurrences for the purposes
of computing damages caps under the Mississippi Tort
Claims Act; plus
2.
An order requiring Webster County,
Mississippi to indemnify former Sheriff Tim Mitchell,
former dispatcher Santana Townsend, and John Does 130 for any and all actions or omissions that occurred
during the course and scope of their employment or while
they acted under color of law in accordance with a policy
statement, ordinance, regulation, decision, custom, or
usage of the County as adopted, promulgated, or ratified
by Sheriff Mitchell; plus
3.
An order requiring Webster County,
Mississippi and the Webster County Sheriff’s Department
to:
a.
Refrain
from
adopting,
promulgating, ratifying, or implementing any
policy statement, ordinance, regulation,
decision, custom, or usage that would permit
inmates or pretrial detainees to be released
from jail for weekend passes without direct and
continuous supervision unless a policy
approved by this Court is put into place and
followed;
b.
Provide adequate supervision to all
employees and inmates to promote compliance
with the Court’s orders; and

86a
c.
Report to the Court on a periodic
basis to ensure compliance; plus
4.
All general relief, whether legal or
equitable, that this Court may deem meet and proper in
the premises.
The Plaintiff demands a jury trial.
Respectfully submitted this 17th day of June 2019.
FELICIA ROBINSON
By:

/s/Matthew D. Wilson
MATTHEW D. WILSON
(MS Bar #102344; TN BPR#
28175; USPTO 67,842)
The Law Office of Matthew Wilson,
PLLC
PO Box 4814, Mississippi State, MS
39762
Telephone: 662-312-5039
Email: starkvillelawyer@gmail.com

